<html>
<title> - A DANGEROUS AND SOPHISTICATED ADVERSARY: THE THREAT TO THE HOMELAND POSED BY CARTEL OPERATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  A DANGEROUS AND SOPHISTICATED ADVERSARY: THE THREAT TO THE HOMELAND 
                       POSED BY CARTEL OPERATIONS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

                            Serial No. 115-4

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
     
                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-398 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Jeff Duncan, South Carolina          J. Luis Correa, California
Lou Barletta, Pennsylvania           Val Butler Demings, Florida
Will Hurd, Texas                     Nanette Diaz Barragan, California
John H. Rutherford, Florida          Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
     Alison Northrop, Minority Subcommittee Staff Director/Counsel
     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Vice Admiral Charles W. Ray, Deputy Commandant for Operations, 
  U.S. Coast Guard:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Chief Paul A. Beeson, Commander, Joint Task Force--West, Arizona, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Matthew C. Allen, Assistant Director for HSI Investigative 
  Programs, Homeland Security Investigations, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Mr. Luis E. Arreaga, Principal Deputy Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                             For the Record

The Honorable John Katko, a Representative in Congress From the 
  State of New York:
  Article, The Daily Beast.......................................    54
  Article, Daily Caller..........................................    56


  A DANGEROUS AND SOPHISTICATED ADVERSARY: THE THREAT TO THE HOMELAND 
                       POSED BY CARTEL OPERATIONS

                              ----------                              


                      Thursday, February 16, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:19 a.m., in 
room HVC-210, Capitol Visitors Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Rogers, Duncan, Hurd, 
Rutherford, Vela, Correa, Demings, and Barragan.
    Also present: Representatives Katko and Jackson Lee.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. Let me first apologize for being a little bit late. We 
need to clone ourselves around here. I was in an Armed Services 
Committee hearing, very important on the F-35 and the way ahead 
for our troops, so appreciate your patience.
    The subcommittee is meeting today to examine the threat 
posed by drug cartels and transnational criminal organizations. 
I will recognize myself for an opening statement.
    First, I would like to welcome the newest Member of our 
subcommittee, the gentleman from Florida, Mr. Rutherford. 
Welcome. I look forward to working with you and other new 
Members of the committee.
    As we begin the 115th Congress, let me be clear from the 
outset. I hope, over the course of this Congress, we can engage 
in thoughtful and productive conversations that lead to 
legislation and partnerships that will help secure our 
homeland.
    One of my goals this year as Chair of the subcommittee is 
to drill down on the threat that an unsecured border poses to 
our fellow Americans, which will be the focus of our 
conversation today. At our next hearing, we will hear from 
leaders of the Border Security Joint Task Forces, authorized by 
this committee last Congress, to examine the Nation's counter-
network approach to combatting this threat.
    Protecting our borders is a multi-faceted effort. The job 
of securing the land border falls primarily to U.S. Border 
Patrol, while the job of the U.S. Coast Guard is to secure our 
maritime border.
    We do have Office of Field Operations, an important role of 
securing more than 300 ports of entry, and Air and Marine 
Operations carries out air and marine maritime environment 
activities and admissions to detect and interdict unlawful 
people and cargo approaching our borders.
    Finally, HSI, Homeland Security Investigations, supports 
National security through its investigatory authorities and 
responsibilities.
    These are not simple or easy tasks. The Southwest Border is 
a dynamic place with sometimes unforgiving terrain: Rugged 
mountains, scorching desert, high cliffs, canyons, and more 
than 1,000 miles of river.
    The maritime border is more than 4.5 million square miles 
of vast ocean patrolled by a limited number of assets, 
providing cartels with enormous expanses of territory to which 
to conduct their illicit activities.
    Congress has appropriated billions of dollars to shore up 
our border defenses. Today, we have an impressive array of 
technology, infrastructure, and personnel deployed to keep the 
Nation safe. Despite our best efforts, we have seemingly made 
little progress, though, over the last few years to secure the 
border.
    Most recent reports and testimony suggest that between our 
ports of entry we are a little more than 50 percent effective 
at stopping people from crossing the border illegally, and 
narcotics continue to pour into our communities unabated.
    But on the other side of the border, the adversary, Mexican 
drug cartels, operate a wide-reaching network. Nothing moves in 
or out unless the cartel plaza boss says so.
    Cartel presence, influence, and power throughout Mexico is 
ubiquitous. Corruption is endemic. Local law enforcement in 
Mexico often find themselves ill-equipped to handle the vast 
amount of cartel activity.
    Smuggling drugs and people is a billion-dollar business, 
and the individuals in charge have one goal in mind: Make as 
much money as possible delivering illicit narcotics, people, 
and other assets across the border and into the United States.
    Obscene profits incentivize the cartels to be 
entrepreneurial and innovative in the tactics they use to 
successfully smuggle their illicit cargo. For instance, we know 
they conduct extensive counter-surveillance activities against 
our agents. They place spotters or scouts on hilltops and use 
the high ground to guide the drug loads away from agents and 
other detection assets.
    Sophisticated and deep tunnels that include the use of 
ventilation systems and railcars to expedite the movement of 
drugs have also been used. We have seen a proliferation of 
unorthodox methods of smuggling, such as the use of propane-
powered double-barrel cannons in my district and around in 
other areas to shoot hundreds of pounds of drugs over the 
fences and barriers.
    Ultralight aircraft, difficult to detect on radar, have 
been used under the cover of darkness to fly drugs over the 
border, dropping it very quickly and then returning undetected 
to Mexico.
    In my district, authorities broke up a complicated 
smuggling ring recently in Cochise County. The criminal network 
specialized in drive-through operations that used vehicle 
convoys laden with thousands of pounds of drugs to cross remote 
parts of the border. They used scouts, encrypted 
communications, specialized codes to avoid detection.
    It was not an amateur operation by any means. To the 
contrary, it was a sophisticated criminal enterprise with 
advanced tactics designed to thwart law enforcement at every 
turn. This is the nature of the adversary that we are facing 
along the border.
    San Diego was once one of the busiest sectors for illicit 
traffic in the Nation, but concerted efforts in the 1990's and 
early 2000's, included additional barriers and manpower, 
brought the situation under control.
    But nonetheless, because the cartels are nimble, they 
responded by using small open-hold vessels called panga boats 
to push the drug loads farther and farther off the coast of 
California--I am sure we will hear about that from you today, 
Admiral--and making them more difficult to detect, track, and 
ultimately interdict.
    Semisubmersibles, painted blue to blend in with the ocean, 
barely visible above the waterline, have been used to deliver 
multi-ton cocaine loads to Mexico. Their ultimate destination 
is cities and towns across our Nation.
    As we increase our focus this Congress on securing the 
border, which I welcome, we have to be clear-eyed about the 
dangerous and sophisticated threat that we face from these 
adversaries on the other side. Rest assured, the cartels will 
not sit idly by while we increase manpower, technology, 
infrastructure, or adjust our strategy, and that will threaten 
their business model.
    They will adapt. They will innovate like they always do, 
and just plain sometimes outsmart us if we do not leverage the 
full power of all of us together to focus on countering the 
cartel network.
    I want to thank the witnesses for being here today this 
morning. I really look forward to your testimony and the 
discussion ahead.
    Before I recognize the Ranking Member, I ask unanimous 
consent that the gentleman from New York, Mr. Katko, be 
permitted to participate in today's hearing. Without objection, 
so ordered.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                           february 16, 2017
    First, I would like to welcome the newest Member of our 
subcommittee, the gentleman from Florida, Mr. Rutherford. I look 
forward to working with you and the other new Members of the committee. 
As we begin the 115th Congress, let me be clear from the outset, I hope 
that over the course of this Congress we can engage in thoughtful and 
productive conversations that lead to legislation that will help secure 
our homeland.
    One of my goals this year as Chair of this subcommittee is to drill 
down on the threat that an unsecure border poses to our fellow 
Americans, which will be the focus of our conversation today. At our 
next hearing, we will hear from the leaders of the border security 
joint task forces, authorized by this committee last Congress, to 
examine the Nation's counter-network approach to combating the threat.
    Protecting our borders is a multi-faceted effort. The job of 
securing the land border falls primarily to the U.S. Border Patrol, 
while it is the job of the U.S. Coast Guard to secure our maritime 
border. The Office of Field Operations has the important role of 
securing more than 300 ports of entry while Air and Marine Operations 
carries out air and maritime environment missions to detect and 
interdict unlawful people and cargo approaching our borders.
    Finally, Homeland Security Investigations supports National 
security through its investigatory authorities and responsibilities.
    These are not simple or easy tasks.
    The Southwest Border is a dynamic place with unforgiving terrain--
rugged mountains, scorching desert, high cliffs, canyons, and more than 
a thousand miles of river. The maritime border is more than 4.5 million 
square miles of vast ocean, patrolled by a limited number of assets, 
providing cartels with enormous expanses of territory in which to 
conduct illicit activities.
    Congress has appropriated billions of dollars to shore up our 
border defenses. Today we have an impressive array of technology, 
infrastructure, and personnel deployed to keep the Nation safe. Despite 
our best efforts, we have seemingly made little progress over the last 
few years to secure the border. Most recently reports and testimony 
suggest that, between our ports of entry, we are little more than 50% 
effective at stopping people from crossing the border illegally, and 
narcotics continue to pour into our communities unabated.
    But on the other side of the border, our adversary, the Mexican 
drug cartels, operate a wide-reaching network. Nothing moves in or out 
unless the cartel plaza boss says so. Cartel presence, influence, and 
power throughout Mexico is ubiquitous. Corruption is endemic, and local 
law enforcement in Mexico often find themselves ill-equipped to handle 
the vast amounts of cartel activity. Smuggling drugs and people is a 
billion dollar business and the individuals in charge have one goal in 
mind: Make as much money as possible delivering illicit narcotics and 
people across the border and into the United States.
    Obscene profits incentivize the cartels to be entrepreneurial and 
innovative in the tactics they use to successfully smuggle their 
illicit cargo. For instance, we know that they conduct extensive 
counter-surveillance against our agents. They place spotters, or 
scouts, on mountains, and use the high ground to guide the drug loads 
away from agents and other detection assets.
    Sophisticated and deep tunnels that include the use of ventilation 
systems and rail cars to expedite the movement of drugs have also been 
used. And we have seen a proliferation of unorthodox methods of 
smuggling, such as the use of propane-powered double barrel cannons to 
shoot hundreds of pounds of drugs over the fence.
    Ultralight aircraft, difficult to detect on radar, have been used 
under the cover of darkness to fly marijuana over the border--dropping 
it very quickly and then returning undetected to Mexico.
    In my district in Arizona, authorities broke up a complicated 
smuggling ring in Cochise County. The criminal network specialized in 
drive-through operations that used vehicle convoys laden with thousands 
of pounds of drugs to cross remote parts of the border. They used 
scouts, encrypted communication, and specialized codes to avoid 
detection. It was not an amateur operation by any means. To the 
contrary, it was a sophisticated criminal enterprise with advanced 
tactics designed to thwart law enforcement at every turn.
    That is the nature of the adversary we face along the border.
    San Diego was once one of the busiest sectors for illicit traffic 
in the Nation, but concerted efforts in the 1990s and early 2000s that 
included additional fence and manpower brought the situation under 
control.
    Nonetheless, because the cartels are nimble, they responded by 
using small open-hulled vessels called ``panga boats'' to push drug 
loads farther and farther off the coast of California, making them more 
difficult to detect, track, and ultimately interdict. Semi-
submersibles, painted blue to blend in with the ocean, and barely 
visible above the water line, have been used to deliver multi-ton 
cocaine loads to Mexico. Their ultimate destination is cities and towns 
across our country.
    As we increase our focus this Congress on securing the border, we 
have to be clear-eyed about the dangerous and sophisticated threat that 
we face from our adversaries on the other side.
    Rest assured, the cartels will not sit idly by while we increase 
manpower, technology, and infrastructure that threaten their business 
model. They will adapt, innovate, and just plain out-smart us if we do 
not leverage the full power of the Government to focus on countering 
the cartel network. I thank the witnesses for being here this morning 
and look forward to their testimony.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for a 
statement he may have.
    Mr. Vela. Thank you, Chairwoman, for calling this very 
important hearing.
    As we have discussed, I think this is one area where many 
of us can agree that we are going to be able to work together 
to achieve our ultimate goal, which is to do as much as we can 
to impact the negative work that the cartels do in South 
America, Mexico, and all throughout the United States and, at 
the same time, do what we can to take drugs off our streets.
    I would first like to welcome and introduce our newest 
Members to the Subcommittee on Border and Maritime Security. 
Congressman Lou Correa represents California's 46th 
Congressional District and most recently served in the 
California State Senate.
    Congresswoman Val Demings represents Florida's 10th 
Congressional District and previously served as the chief of 
the Orlando Police Department, the first woman to hold that 
position.
    Congresswoman Nanette Barragan, an experienced attorney, 
represents the 44th Congressional District, which includes the 
Port of Los Angeles.
    I would also like to recognize my colleague, Mr. Richmond, 
who is a senior Member in the committee and has joined us on 
this subcommittee for the first time. I look forward to working 
with all of you in the coming months, because each of you bring 
a unique perspective and expertise regarding border and 
maritime security to this subcommittee.
    The subject of our hearing today is one of particular 
interest to me given that, like Congresswoman McSally, I 
represent a border district, and mine is in the Rio Grande 
Valley of Texas. For years now, Tamaulipas, Mexico, the state 
across from my Congressional district, has been coping with 
serious security issues due to cartel violence.
    In fact, this coming Thursday, my Mexican colleagues at the 
Federal level in the state of Tamaulipas and I will be 
launching a social media effort to help promote the idea of 
bringing peace to the state of Tamaulipas.
    As Mexican cartels have fought for control of smuggling 
corridors within Mexico and along our Southern Border, 
communities on the Mexican side have seen record levels of 
drug-related homicides and violence.
    The threat is not confined to our Southern Border. Cartels 
use criminal networks within the United States to traffic 
illicit drugs, weapons, and other contraband. The security and 
prosperity of all of our districts and so many communities 
across the Nation depend in part on security and prosperity 
across the border.
    I want to continue to be supportive of United States' 
efforts to that end. I am also appreciative of Secretary 
Kelly's recent comments with respect to what he would like to 
do to address the issue of demand in this country.
    I hope to hear from you today about how the various 
components within DHS are coordinating with our counterparts in 
Central America and Mexico to combat transnational criminal 
organizations and enhance border security.
    I would ask all of our witnesses to speak to the 
subcommittee about how the threat has evolved and changed over 
time, what you need to address this threat, and what we as 
Members of Congress can do to support all of your efforts. 
Border communities, like the ones that many of us represent, 
and our neighbors in Mexico are counting on us to get this 
right.
    Madame Chairman, thank you for holding this hearing, and I 
appreciate our witnesses joining us today. I look forward to a 
productive Congress with you and all the Members of the 
subcommittee. I yield back the balance of my time.
    Ms. McSally. OK, thanks. Other Members of the committee are 
reminded opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           february 16, 2017
    Today, the matter before the subcommittee is one where I expect 
there to be a great deal of bipartisan agreement. Drug cartels seek to 
exploit our borders to smuggle narcotics into the United States and 
bulk cash and weapons out of this country.
    The Department of Homeland Security and its Federal partners are 
charged with combatting the cartels and securing America's borders, 
ports, and waterways from their contraband.
    This is no easy task, to be sure. The cartels are sophisticated 
operations with thousands of members, the best technology, and almost 
limitless resources to spend on their illicit activities.
    That is why we need to use our border security resources wisely. 
Why waste billions on walls that we know cartels are already defeating 
by sending their drugs over, under, or through, or by concealing in 
conveyances at ports of entry?
    Instead, we need to dedicate funding to the personnel, technology, 
and assets that will help DHS interdict illicit drugs and identify, 
disrupt, and dismantle the organizations responsible for bringing drugs 
into our country.
    For example, Customs and Border Protection is thousands of officers 
and agents short of what the agency's own staffing models say is 
necessary to carry out its operations. Simply saying you are going to 
hire more agents pays lip service to the problem, but does nothing to 
address the underlying issues that have prevented CBP from recruiting, 
hiring, and retaining personnel.
    Also, Coast Guard's air and maritime assets are woefully outdated 
and in dire need of recapitalization. Even so, through the dedication 
and hard work of its men and women, the Coast Guard is credited with 
seizing tons of cocaine in the source and transit zones each year.
    Imagine what they could do with the right kind of modern assets and 
the proper number of personnel to carry out the drug interdiction 
mission that Congress has charged them with.
    These are the kinds of things we, as a country, need to invest in 
if we want to be serious about combatting the cartels and achieving 
meaningful border security.
    Real border security does not come from vaguely worded, politically 
charged Executive Orders or fancy signing ceremonies, but rather by 
providing the right personnel and tools to get the job done. I look 
forward to hearing from our witnesses today about how we can do just 
that.

    Ms. McSally. We are pleased to be joined today by four 
distinguished witnesses to discuss this important topic.
    Vice Admiral Charles Ray assumed duties as the Coast Guard 
deputy commandant for operations in August 2016. In this role, 
Admiral Ray is responsible for the development of operational 
strategy, policy, guidance, and resources that address the 
Coast Guard's National priorities.
    Admiral Ray has previously served as a Pacific area 
commander and in the Middle East as the director of Iraq 
training and advisory mission for the Ministry of Interior.
    Commander Paul Beeson is the commander of the Joint Task 
Force--West, Arizona and chief of the U.S. Border Patrol's 
Tucson sector. As commander of JTF-West, Arizona, he is 
responsible for implementing strategic guidance from Joint Task 
Force--West, and commissioner of U.S. Customs and Border 
Protection, or CBP, through command, control, and coordination 
of CBP operational functions within the State of Arizona.
    In addition to those roles and responsibilities, Commander 
Beeson has oversight of the Tucson sector, encompassing the 
tactical and strategic operation of eight stations and 
approximately 420 personnel, many of which are in my district.
    Mr. Matthew Allen is the assistant director for 
investigative programs for Homeland Security Investigations 
within the U.S. Immigration and Customs Enforcement. Mr. Allen 
is responsible for programmatic oversight of HSI's strategic 
planning, National policy implementation, and the development 
and execution of operational initiatives.
    Mr. Allen previously served as a special agent-in-charge of 
Homeland Security Investigations in Arizona, where he had 
oversight of the full spectrum of ICE investigative activities 
and led more than 500 personnel assigned to offices throughout 
the State.
    Ambassador Luis Arreaga--did I pronounce that correctly?--
was appointed deputy assistant secretary of state for the 
Bureau of International Narcotics and Law Enforcement Affairs 
in November 2013.
    In this role, he is responsible for State Department 
programs combating illicit drugs and organized crime, as well 
as support for law enforcement and rule of law in the Western 
Hemisphere. Prior to this appointment, Ambassador Arreaga 
served as United States Ambassador to the Republic of Iceland 
from 2010 to 2013.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Admiral Ray for 5 minutes to 
testify.

STATEMENT OF VICE ADMIRAL CHARLES W. RAY, DEPUTY COMMANDANT FOR 
                  OPERATIONS, U.S. COAST GUARD

    Admiral Ray. Good morning, Chairwoman McSally, Ranking 
Member Vela, Members of the subcommittee. Thank you for the 
opportunity to testify on the Coast Guard's role in combating 
transnational criminal organizations and the continued threat 
it poses to the homeland.
    I am particularly pleased to testify alongside three of our 
most important partners in the fight against transnational 
crime: CBP, ICE, and the Department of State. I would like to 
thank Chief Beeson, Assistant Director Allen, and Ambassador 
Arreaga for their leadership in this effort.
    Before I continue, I will just draw your attention to the 
exhibit over there of the North America, Central America, and 
South America. When I talk about the transit zone, I am 
generally speaking to that and when we speak of the maritime 
transit zone, it is that area between South America, Central 
America, and Southern Mexico.
    We continue to face a significant threat from transnational 
criminal networks whose drug transit routes lead to the 
southern approach of the United States. The Coast Guard 
protects the maritime border not just here at home, but also 
off the coast of South and Central America as part of our 
layered security strategy.
    As Secretary Kelly stated just a few days ago, the defense 
of the Southwest Border really starts about 1,500 miles south 
of there, when transnational violent transnational criminal 
organizations harm economies and threaten governments and 
citizens throughout the hemisphere.
    They are agnostic to borders, engage in all manners of 
illicit activity, and they actually destabilize Latin America. 
The wide-spread violence they employ has reached epidemic 
levels, is spreading, and drives the continued flow of migrants 
from Central America and Mexico who attempt to illegally enter 
the United States.
    As one of the Nation's five Armed Forces and the only one 
with broad law enforcement authority, the Coast Guard is 
uniquely positioned to attack these criminal networks where 
they are most vulnerable--at sea.
    In the offshore transit zones, the Coast Guard employs an 
interdiction package consisting of a cutter, an airborne use of 
force-capable helicopter, high-speed pursuit boats and, of 
course, highly trained boarding teams.
    We seize multi-ton loads of drugs at sea before they are 
broken into small quantities, which are extremely difficult to 
detect and cause devastation at each step of their journey as 
they make their way to North America.
    Beyond our own capabilities, we leverage over 42 maritime 
law enforcement bilateral agreements, 29 of which are in the 
Western Hemisphere, to enable partner nation interdiction and 
prosecutions. In many affected areas, we are the only maritime 
presence to enforce universal criminal statutes with our 
maritime neighbors.
    Our Coast Guard personnel assets are effective. Coast Guard 
and partner agencies interdicted more cocaine at sea in 2016 
than was interdicted in all the land and across our country by 
all Federal, State, and locals combined, because we did it in 
bulk quantities off-shore, sometimes in the thousands of kilos. 
By doing so, we pushed the border south, protect the Nation, 
and significantly impact the transnational criminal 
organizations.
    Beyond demonstrating our effectiveness, these statistics 
indicate that cocaine and illicit trafficking of all kinds are, 
unfortunately, on the rise. However, resource constraints and 
the lack of capable surface assets allow the U.S. Coast Guard 
to only attack or target 30 percent of the known cases.
    We have good intelligence, really high-confidence 
intelligence. As a result of a lack of resources last year, we 
were prevented from getting after 580 known smuggling events, 
and those shipments made their way on north.
    Unfortunately, the other significant National security 
demands on our great Navy now preclude their participation in 
this area of operations. In his testimony before the committee, 
Secretary Kelly noted there hasn't been a significant sustained 
Navy presence in the Caribbean and Eastern Pacific for almost 4 
years.
    In that time, our Coast Guard has doubled down our presence 
in the region, and we are your armed force in the maritime 
approaches to the United States. We continue to look for ways 
to increase our offshore cutter presence. As I have said, we 
just don't have the assets to address all the intelligence that 
we have.
    For that reason, recapitalizing our medium-endurance cutter 
fleet with our off-shore cutter patrol program is a must to 
enable the Coast Guard to meet mission demand. We appreciate 
the support thus far, and continued support from this Congress 
will be essential as we move on to commission our first off-
shore patrol cutter in 2021. These new assets will make us more 
effective.
    Just like the other Armed Forces, we are also facing 
significant readiness challenges with our aging assets and 
infrastructure and a strained work force. Like our fellow 
service chiefs, the commandant has said he believes it will 
stay this way as long as the Budget Control Act is in effect.
    We will continue to use risk-based approach to allocate our 
resources. We have an outstanding and dedicated group of 
professional women and men, as evidenced by the 201 metric tons 
of cocaine we seized in 2016. It is a Coast Guard record.
    Thank you for the opportunity to testify before you today 
and for all you do for the women and men of the Coast Guard. I 
look forward to addressing your questions and concerns. Thank 
you.
    [The prepared statement of Admiral Ray follows:]
                  Prepared Statement of Charles W. Ray
                           February 16, 2017
                              introduction
    Good morning Madam Chairwoman and distinguished Members of the 
subcommittee. It is a pleasure to be here today to discuss the Coast 
Guard's role in combating transnational organized crime and 
specifically how we address the drug smuggling methods of these 
networks.
    Drug trafficking has destabilized regional States, undermined the 
rule of law, terrorized citizens, and driven both families and 
unaccompanied children to migrate to the United States. To be clear, 
the flow of illicit drugs funds Transnational Organized Crime (TOC) 
networks, which pose a significant and growing threat to National and 
international security.
    Today's Coast Guard is a direct descendant of the Revenue Cutter 
Service, created by Alexander Hamilton in 1790, to stem the flow of 
maritime contraband into our newly-formed Republic. It is one of the 
Nation's five Armed Services, and the only branch of the military 
within the Department of Homeland Security (DHS). While our missions 
and responsibilities have grown significantly since then--addressing a 
full range of security, safety, and stewardship concerns--our anti-
smuggling roots continue to be an essential part of our service to the 
Nation. The Coast Guard is the lead Federal maritime law enforcement 
agency, the lead Federal agency for drug interdiction on the high seas, 
and the only agency with both the authority and capability to enforce 
National and international law on the high seas, outer continental 
shelf, and shoreward from the U.S. Exclusive Economic Zone (EEZ) to our 
inland waters.
    For over two centuries, the Coast Guard has built a reputation as 
one of the most agile and adaptive agencies within the Federal 
Government; these qualities have served the Coast Guard well in its 
efforts to combat smugglers' ever-evolving conveyances and tactics. The 
modern role of the Coast Guard in this fight can be traced to the 
demand for a variety of illegal drugs. From 1973 through 1991, the 
Coast Guard removed over 26 million pounds of marijuana, targeting and 
interdicting a variety of smuggling conveyances including commercial 
fishing vessels, ocean-going cargo freighters, and pleasure craft. 
Beginning in the late 1990's, through the present day, cocaine has been 
the predominant drug being trafficked via maritime routes, bringing 
with it shifts in smuggling tactics. Cartels initially began using some 
of the very same conveyances used by marijuana smugglers, which 
included multi-ton loads of cocaine vulnerable to interdiction by Coast 
Guard forces. Cartels quickly adapted to Coast Guard efforts and began 
expanding tactics to include the ubiquitous ``go-fast vessel,'' as well 
as more modern conveyances including the purpose-built self-propelled 
semi-submersible (SPSS), to disperse loads onto more numerous and 
harder-to-detect conveyances.
    Today we face a sophisticated and well-funded adversary that 
leverages high-tech conveyances such as low-profile vessels and semi-
submersibles, employs multiple go-fast vessels to outnumber 
interdicting forces, and deploys GPS beacons if forced to jettison 
bales of contraband to allow later relocation; all are advanced and 
coordinated means to avoid detection and evade apprehension.
    The change in flow of cocaine toward the United States from South 
America from 2015 to 2016 was the largest increase the service has 
observed to date. The rise of cocaine production is attributed to the 
largest single-year increase of coca cultivation in Colombia ever 
recorded (immediately following the second-largest single-year increase 
in more than a decade). To meet this growing threat, the Coast Guard 
has dedicated additional focus and assets to the Western Hemisphere 
Transit Zone\1\, and is investing in the people and platforms necessary 
to carry out an agressive interdiction effort, in addition to helping 
build regional partner capabilities.
---------------------------------------------------------------------------
    \1\ The maritime portion of the Western Hemisphere Transit Zone is 
a 6 million-square-mile area, roughly twice the size of the continental 
United States. The Transit Zone includes the Caribbean Sea, the Gulf of 
Mexico, and the eastern Pacific Ocean.
---------------------------------------------------------------------------
     current threat: transnational organized crime, violence, and 
                              instability
    One of the goals of the Coast Guard's drug interdiction program is 
to interdict illicit traffic as close to the source zone as possible. 
This helps to stem the flow of drugs from reaching Central America, 
Mexico, and the United States. Over the past 5 years, Coast Guard 
cutters and aircraft have removed more than 630 metric tons of high-
purity cocaine from the high seas, with a wholesale value of nearly 18 
billion dollars.\2\ Our annual seizures at sea amount to more than 
three times the quantity of cocaine seized at our borders and within 
the United States, combined. Despite these successes, TOC networks 
operate throughout Central America, vying for power through drug-fueled 
violence and corruption of Government officials; in fact, eight out of 
the world's ten countries with the highest per capita rates of homicide 
are along the cocaine trafficking routes in the Western Hemisphere.\3\
---------------------------------------------------------------------------
    \2\ U.S. Department of Justice, Drug Enforcement Administration, 
2013 United States Illicit Drug Prices, DEA Intelligence Report, DEA-
DCW-DIR-012-15, January 2015.
    \3\ United Nations Office on Drugs and Crime (UNODC), UNODC 
Research and Trend Analysis Branch, Global Study on Homicide 2013.
---------------------------------------------------------------------------
    In response, the Coast Guard released its Western Hemisphere 
Strategy that indentifies three priorities for the maritime domain in 
the Western Hemisphere: Combating Networks, Securing Borders, and 
Safeguarding Commerce. To meet these priorities, the strategy 
emphasizes the importance of a robust off-shore airborne use-of-force 
(AUF)-enabled cutter capability, which is supported by fixed-wing 
maritime patrol aircraft and sophisticated intelligence capabilities.
    combating toc networks--a layered approach to drug interdiction
    The Coast Guard uses a ``maritime trident'' of cutters, boats, and 
aircraft in a layered approach to combat TOC networks as they transport 
illicit goods from the source zone, through Central America and 
Caribbean islands, into the United States. This approach maintains 
operational control by confronting the threat beyond our land borders, 
beyond Mexico, and beyond Central America on the high seas where 
traffickers are most exposed and vulnerable to interdiction by the 
United States. This layered approach begins overseas, spans the off-
shore regions, and continues into our territorial seas and our ports of 
entry.
    The Coast Guard is the major maritime interdiction asset provider 
to Joint Interagency Task Force--South (JIATF-S), which executes the 
Department of Defense statutory responsibility for the detection and 
monitoring of illicit drug trafficking in the air and maritime domains 
bound for the United States in support of law enforcement agencies such 
as the Coast Guard. Our most capable force package is flight deck-
equipped major cutters with embarked Airborne Use of Force (AUF)-
capable helicopters and deployable pursuit-capable boats, supported by 
fixed-wing maritime patrol aircraft, along with Coast Guard law 
enforcement detachments embarked on U.S. and allied ships. When they 
are able to target cases, they have been 80-90 percent effective in 
disrupting drug shipments.
    As an example of their effectiveness, Coast Guard Cutter HAMILTON, 
the fourth and newest of nine National Security Cutters (NSC) to be 
built for the Coast Guard, returned to her homeport of Charleston, 
South Carolina from her inaugural patrol on December 16, 2016. On deck, 
she carried more than 24 metric tons of high-purity cocaine from 27 
different interdictions by U.S. forces with a street value of nearly 
$700 million.\4\ These interdictions also netted 111 suspects bound for 
U.S. prosecution.
---------------------------------------------------------------------------
    \4\ U.S. Department of Justice, Drug Enforcement Administration, 
2013 United States Illicit Drug Prices, DEA Intelligence Report, DEA-
DCW-DIR-012-15, January 2015.
---------------------------------------------------------------------------
    Our interdicting capabilities continue to prove their value against 
TOC networks' conveyance of choice--the go-fast vessel. In 2016, our 
Helicopter Interdiction Tactical Squadron (HITRON) of AUF-capable 
helicopters--along with partner aircraft from the U.S. Navy, the 
Netherlands, and United Kingdom operating under our law enforcement 
authority with Coast Guard precision marksmen--set a record 63 at-sea 
interdictions, netting over 44 metric tons of cocaine.
    In addition, the Coast Guard began providing high-speed pursuit 
boats and crews to U.S. Navy Patrol Coastal class ships operating in 
the transit zone in 2016 to increase interdiction opportunities. 
Coupled with Coast Guard Law Enforcement Detachments, this innovative 
force package capability netted 11 interdictions and removed 6.5 metric 
tons of cocaine in just a few months. In total for fiscal year 2016, 
the Coast Guard removed 201 metric tons of cocaine (7.1 percent of 
estimated flow)\5\ and 52,600 pounds of marijuana from the transit 
zone, worth an estimated wholesale value of $5.7 billion.
---------------------------------------------------------------------------
    \5\ U.S. Department of Homeland Security, Office of Inspector 
General, Review of U.S. Coast Guard's Fiscal Year 2016 Drug Control 
Performance Summary, OIG Report, OIG-17-33, February 1, 2017.
---------------------------------------------------------------------------
    The importance of interdictions transcends the direct removal of 
drugs taken off the high seas; when the Coast Guard apprehends suspects 
from drug smuggling cases, they disclose information during prosecution 
and sentencing that is used to help indict, extradite, and convict drug 
kingpins in the effort to disrupt and dismantle TOC networks. 
Interdictions also take profits out of the pockets of criminal networks 
by denying them financial resources. Additionally, they contribute to 
actionable intelligence on future events, producing follow-on seizures 
and intelligence. TOC networks cause much of the corruption and 
violence that spurs the increased migrant flow seen in recent years.
    While more than 90 percent of our 2016 interdictions were cued by 
intelligence, the Coast Guard's aging major cutters limit our ability 
to respond to all intelligence-cued events. Critical acquisitions like 
the National Security Cutter (NSC) and Offshore Patrol Cutter (OPC) are 
essential to our long-term success in our fight against TOC networks.
                       international cooperation
    In coordination with JIATF-S, the Coast Guard is engaging with 
partner nations in Central and South America, and Mexico, leveraging 
their capabilities and local knowledge to improve maritime governance 
in the littoral regions being exploited by TOC networks. Among the 
efforts to foster international cooperation and build partner capacity, 
Coast Guard personnel are posted as attaches, liaisons, and drug 
interdiction specialists at several of our embassies in the Western 
Hemisphere. These personnel develop strategic relationships with 
partner nations that facilitate real-time operations coordination, 
confirmation of vessel registry, waivers of jurisdiction, and 
disposition of seized vessels, contraband, and detained crews. The 
Coast Guard's law enforcement, legal, and regulatory expertise are in 
high demand from Central American partners, whose Navies more closely 
resemble the U.S. Coast Guard than the U.S. Navy. Coast Guard 
International Training teams, as well as Coast Guard units deployed in 
the region increase professional interaction, shiprider activities, and 
training in conjunction with operations, and also execute maritime 
exercises coincident with port visits and patrols.
    Working in conjunction with the Departments of State and Justice, 
the Coast Guard has negotiated, concluded, and maintains over 40 
counterdrug bilateral agreements and operational procedures with 
partner nations throughout the world, the majority of which are in the 
Western Hemisphere. These agreements enable the Coast Guard to rapidly 
gain authority to board suspect vessels, prevent suspect vessels from 
using under-patrolled territorial waters of partner nations as safe 
havens, and coordinate interdiction and apprehension operations in the 
transit zone. Highlighting their importance to Coast Guard counterdrug 
efforts, 59 percent of all Coast Guard interdictions in fiscal year 
2016 involved the use of a bilateral agreement or operational 
procedures agreement.
                            the arrival zone
    Closer to United States shores, Coast Guard operational commanders 
work with the other operational components within DHS and across the 
interagency to provide a robust presence in the U.S. maritime 
approaches by deploying Fast Response Cutters, high-speed pursuit 
boats, medium-range fixed-wing aircraft, and land-based AUF-capable 
helicopters. To achieve Unity of Effort, the Coast Guard is a major 
contributor to DHS's Southern Border and Approaches Campaign Plan. The 
Coast Guard Atlantic Area Commander, Vice Admiral Karl Schultz, serves 
as the director of Joint Task Force--East overseeing coordination 
efforts for DHS components operating in the maritime approaches in the 
Caribbean Sea, Gulf of Mexico, and eastern Pacific Ocean.
                               conclusion
    The Coast Guard endeavors to secure our vast maritime border by 
identifying emergent threats, countering them in a layered approach, 
utilizing strong international relationships, and maximizing domestic 
and regional partnerships; this approach has been key to combatting TOC 
networks. The Coast Guard stands ready to meet off-shore, coastal, and 
inland drug trafficking threats in the maritime domain posed by TOC 
networks.
    Thank you for the opportunity to testify today, and thank you for 
your continued support of the U.S. Coast Guard. I would be pleased to 
answer your questions.

    Ms. McSally. Thank you, Admiral Ray.
    The Chair now recognizes Commander Beeson to testify for 5 
minutes.

STATEMENT OF PAUL A. BEESON, COMMANDER, JOINT TASK FORCE--WEST, 
         ARIZONA, U.S. DEPARTMENT OF HOMELAND SECURITY

    Chief Beeson. Good morning, Chairwoman McSally, Ranking 
Member Vela, and the distinguished Members of the subcommittee. 
Thank you for the opportunity to appear today on behalf of U.S. 
Customs and Border Protection to discuss the evolving drug 
smuggling tactics and techniques used by transnational criminal 
organizations and how CBP is working to address this threat and 
secure our Nation's borders.
    I began my career as a Border Patrol agent in 1985, and in 
my 32 years of service I have seen the border change from a 
barbed wire fence and a Nation-wide work force of just a few 
thousand Border Patrol agents, to today, with over 600 miles of 
fencing and almost 20,000 Border Patrol agents on duty.
    The border has changed and become more complex. Over the 
course of my career, I have seen the creation of the Department 
of Homeland Security, funding increases and decreases, and the 
committed evolution of criminals who seek to exploit our 
borders.
    I have also seen CBP and the legacy offices that make up 
CBP work with Congress to improve the border environment. 
Personnel, resources, technology, and tactical infrastructure 
have shaped the border that we see today.
    We have realized greater situational awareness and 
significant reductions in activity from a high of over 1.6 
million arrests in fiscal year 2000 to just over 400,000 
arrests last fiscal year. Throughout my career, I have seen 
TCOs demonstrate unending resolve in their intent to exploit 
the border for their own gain.
    They have used nimble and innovative tactics to illegally 
cross our borders and smuggle both people and contraband. TCOs 
operate throughout the border environment, including at and 
between the ports of entry in the various domains such as land, 
air, and sea.
    CBP has met and combated these illegal activities, but TCOs 
continue in their intent to circumvent border security 
measures. Drug smuggling is a part of many TCO enterprises, and 
today these groups smuggle drugs by foot, vehicle, air, 
tunneling, and even through the use of projectile-type systems.
    TCOs also rely on scouting and counter-surveillance, 
concealment and logistical support to further their illegal 
drug smuggling operations. While illegal drug smuggling still 
occurs, CBP continues to take steps in combatting their 
efforts.
    In fiscal year 2016, CBP officers seized or disrupted more 
than 3.3 million pounds of narcotics. In addition to 
interdictions and seizures, CBP has also disrupted the manner 
in which TCOs attempt to smuggle drugs.
    As an example, prior to fencing and technology deployments 
in the Tucson sector area of operations, over 1,000 vehicle 
drive-throughs were recorded in 2006, and last year, only 18 
such events recorded. While ramping and drive-throughs still 
occur, the efforts of CBP have diminished their probability of 
success and shaped these illicit operations.
    What I have seen in over 30 years of law enforcement is 
that TCOs remain persistent in their intent to engage in 
illegal cross-border activity. I have also seen CBP, through 
collaboration and coordination with law enforcement partners, 
make progress in improving the security of our borders.
    This is the result of investments over the years in our 
border security, and in the blood, sweat, and tears of the men 
and woman who are engaged in the daily battle to secure our 
borders. With continued support from Congress, CBP, in 
coordination with our partners, we will continue to further 
refine and enhance the effectiveness of our detection and 
interdiction capabilities.
    While TCOs may be intent in their smuggling operations, CBP 
is no less determined to safeguard the borders of this great 
country with vigilance, service, and integrity.
    Chairwoman McSally, Ranking Member Vela, and distinguished 
Members of this subcommittee, thank you for the opportunity to 
testify today and I look forward to your questions.
    [The prepared statement of Chief Beeson follows:]
                  Prepared Statement of Paul A. Beeson
                           February 16, 2017
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear today on 
behalf of U.S. Customs and Border Protection (CBP) to discuss the 
evolving drug smuggling tactics and techniques used by transnational 
criminal organizations (TCO) and how CBP is working to address this 
threat and secure our Nation's borders.
    CBP is responsible for America's front-line border security and has 
a significant role in the Nation's efforts to combat the cross-border 
criminal activity of cartels and other TCOs. Thanks to the support of 
Congress, in the past decade, the Department of Homeland Security (DHS) 
has deployed more personnel, resources, technology, and tactical 
infrastructure for securing our borders than at any other time in 
history. As America's front-line border agency, CBP protects the United 
States against terrorist threats and prevents the illegal entry of 
inadmissible persons and contraband, while facilitating lawful travel 
and trade. CBP's mission demands we examine all border security 
threats, from human smuggling to drug smuggling. TCOs continue to 
exploit the border environment for their own gains, employing various 
capabilities to carry out illegal operations. We continue to meet and 
combat these capabilities.
    CBP plays a critical role in the effort to keep dangerous drugs 
from illegally entering the country. Specifically, by leveraging a 
comprehensive, multi-layered, intelligence driven, and threat-based 
approach to enhance the security of our borders, we can diminish the 
effectiveness of TCO drug operations, as well as other border security 
threats. This dynamic approach to security both reduces the 
vulnerability of any single operational approach and extends our zone 
of security to include the avenues of approach, allowing threats to be 
addressed before they reach our borders. By leveraging international 
partnerships, we can ensure that our physical borders are not the first 
or last lines of defense.
                     the current border environment
    The border environment today is both challenging and complex. TCOs 
continually adjust their operations to circumvent detection and 
interdiction by law enforcement, and are quick to take advantage of 
technology advances, cheaper transportation and improvements to 
distribution methods, and improving fabrication and concealment 
techniques. Also, while the threats of illegal immigration and drug 
smuggling continue to be the principal criminal concerns in the border 
environment, TCOs continue to maintain a diverse portfolio of crimes to 
include fraud, weapons smuggling, kidnapping, and extortion. DHS, with 
the support of Congress, has made significant improvements to the 
physical security infrastructure along the Southwestern Border and has 
invested in personnel, training, and information sharing. These 
investments have been valuable in combating the TCOs and have helped 
shape the current border environment.
    In fiscal year 2016, CBP officers and agents seized and/or 
disrupted more than 3.3 million pounds of narcotics across the country 
\1\ including approximately 46,000 pounds of methamphetamine, 4,800 
pounds of heroin, and 440 pounds of fentanyl. The vast majority of CBP 
drug interdictions occur along the Southwest land border from all 
environments and transportation modes.
---------------------------------------------------------------------------
    \1\ Fiscal Year 2016 Border Security Report, U.S. Customs and 
Border Protection, https://www.cbp.gov/sites/default/files/assets/
documents/2016-Dec/CBP-fy2016-border-security-report.pdf.
---------------------------------------------------------------------------
    Much of the illegal drug trafficking encountered by CBP officers 
and agents is facilitated by TCOs operating in Mexico. The reach and 
influence of Mexican cartels, notably Los Zetas, and the Gulf, Juarez, 
Jalisco New Generation, and Sinaloa Cartels, stretches across and 
beyond the Southwest Border, operating through networks and loose 
affiliations with smaller organizations in cities across the United 
States. According to a 2016 Drug Enforcement Administration report, 
Mexican TCOs pose the greatest criminal drug threat to the United 
States. These criminal organizations traffic heroin, methamphetamine, 
cocaine, and marijuana throughout the United States, using established 
transportation routes and distribution networks.\2\ TCOs also maintain 
influence over U.S.-based gangs as a way to expand their domestic 
distribution process. Gang members are heavily involved in the domestic 
distribution of narcotics and, to a lesser extent, the actual movement 
of contraband across the Southwest Border.
---------------------------------------------------------------------------
    \2\ Drug Enforcement Administration,2016 National Drug Threat 
Assessment Summary, ``Mexican Transnational Criminal Organizations'', 
page 1, DEA-DCT-DIR-001-17, November 2016. https://www.dea.gov/
resource-center/2016%20NDTA%20Summary.pdf.
---------------------------------------------------------------------------
                             tco operations
    In examining TCOs, it is apparent that they continue to seek ways 
to exploit the border environment. These TCOs pose a significant threat 
to both U.S. and international security. The illegal operations of TCOs 
affect both public safety and economic stability. Not only are these 
criminal networks resilient, but they maintain illicit pathways through 
foreign countries and toward the U.S. border, which could be 
exploitable by terror organizations to move personnel and assets into 
the United States. Furthermore, their operations are often diversified 
with separate operational cells, and with TCO participants often having 
the capability to participate in multiple roles. These TCOs are highly 
mobile and maintain sophisticated cross-border networks and are 
involved in a wide range of organized criminal activities including 
firearms trafficking, drug smuggling, and alien smuggling (See Exhibit 
14). Additionally, TCOs operate throughout the spectrum of the border 
environment including at and between the ports of entry (POE), and in 
the various domains such as land, air, and sea.
    The vast expanses of remote and rugged terrain between our POEs, 
and the large volume of trade and traffic at our POEs, continue to be 
targeted for exploitation by TCOs. These groups use a wide range of 
ever-evolving methods to move illicit goods into the United States. 
Some of these techniques include the movement of drugs by foot, 
conveyance, tunneling, and even through the use of projectile-type 
systems. These groups also rely on supporting tactics such as 
countersurveillance, concealment, and logistical support to further 
their illegal drug smuggling operations.
    The Southwest land border POEs are the major points of entry for 
illegal drugs, where smugglers use a wide variety of tactics and 
techniques for concealing drugs. CBP officers regularly find drugs 
ingested, concealed in body cavities, taped to bodies (body carriers), 
hidden inside vehicle seat cushions, gas tanks, dash boards, tires, 
packaged food, household and hygiene products, in checked luggage, and 
concealed in construction materials on commercial trucks. While many 
smuggling attempts occur at POEs, the mail and express consignment 
environment, as well as maritime cargo also remain attractive options 
for smugglers.
    TCOs have increased both the number and the sophistication of 
smuggling tunnels (See Exhibits 11-13). The tunnel threat consists of 
four categories of tunnels: Conduit, rudimentary, interconnecting, and 
sophisticated. In the Arizona border regions specifically, TCOs also 
continue to attempt ``drive-throughs''--incursions into U.S. territory 
by driving vehicles on ramps over the fence, or by attempting to cut 
the fence to drive vehicles containing illegal drugs across the border. 
Drive-through incursions generally involve large loads of illegal 
drugs, an expansive network of individuals (to include scouts), 
strategic logistics, and sophisticated communications equipment. TCOs 
have also improved their capabilities in passing drugs over existing 
fencing. Whereas TCOs previously threw, by hand, small loads of drugs 
over the border fence, they now utilize compressed air cannons to 
launch bundles of illicit narcotics in excess of 100 pounds over the 
border fence. These illegal operations are indicative of the ever-
evolving and persistent intent of TCOs to exploit the border 
environment.
    As interdiction and enforcement efforts along the U.S.-Mexico 
border have become more effective, TCOs continue to use maritime and 
air smuggling routes to transport contraband into the United States. 
TCOs use a variety of methods to enter the United States via maritime 
routes, including the use of small open vessels known as ``pangas.'' 
These small, wood or fiberglass, home-made fishing vessels cross the 
border at night, attempting to use their relatively high-speed and 
small radar signature to evade detection by CBP and U.S. Coast Guard 
(USCG) patrol vessels and aircraft. TCOs also use pleasure boats or 
small commercial fishing vessels--Sometimes equipped with hidden 
compartments--and attempt to blend in with legitimate boaters and 
transport contraband during broad daylight. Smuggling operations using 
this technique rely on the sheer number of similar boats on U.S. waters 
on any given day to elude detection. TCOs have also turned to new 
methods of smuggling by air with the emergence in recent years of the 
use of ultralight aircraft (See Exhibit 1). Under the cover of 
darkness, ultralights fly across the Southwest Border and air-drop 
drugs to waiting ground crews.
    TCOs regularly use countersurveillance tactics. This type of 
activity ranges from the use of scouts, individuals performing 
surveillance activity against law enforcement agencies, to more 
complicated activity such as interception of law enforcement 
communication. Scouts embed deep in the remote, rugged, terrain as well 
as urban communities, watching and reporting on border law enforcement 
activities. TCOs who deploy these scouts utilize a robust, highly 
technical, communication method--with the deliberate intent of 
concealing their communication from law enforcement (See Exhibits 2-5). 
While some of these operations are illegal in their execution (such as 
attempts to illegally obtain Law Enforcement Sensitive information) 
others simply exploit the public venues from which, and within which, 
law enforcement operates (such as monitoring the coming and going of 
patrol vehicles from a Border Patrol station).
    As TCOs involved in smuggling continue to explore new tactics and 
techniques to attempt to evade detection and interdiction, CBP, our 
Federal partners, and other law enforcement entities continue to adapt 
and increase our enforcement resources, enhancing our capabilities, and 
refine our strategies to anticipate and disrupt TCO activity.
       cbp efforts, resources, and capabilities to counter tco s
    Addressing the TCO threat necessitates a united, comprehensive 
strategy and an aggressive approach by multiple entities across all 
levels of government. In close coordination with local, State, Tribal, 
international, and Federal law enforcement partners--specifically U.S. 
Immigration and Customs Enforcement (ICE) and the USCG--CBP's continued 
efforts to interdict illegal aliens, drugs, cash, and weapons at the 
border are a key aspect of U.S. border security efforts. We must also 
concentrate on increasing our understanding and identification of 
transnational criminal networks in order to identify, interdict, 
investigate, and prosecute TCOs and their criminal activity.
Along U.S. Borders
    Since 2004, the number of Border Patrol agents has nearly doubled, 
from approximately 10,800 in 2004 to over 19,500 agents today. Along 
the Southwest border, DHS has increased the number of law enforcement 
on the ground from approximately 9,100 Border Patrol agents in 2001 to 
more than 16,000 today. At our Northern Border, the force of 500 agents 
that we sustained 15 years ago has grown to over 2,000.\3\
---------------------------------------------------------------------------
    \3\ As of January 7, 2017.
---------------------------------------------------------------------------
    To combat the threat of TCO drug smuggling activities along the 
Southwest Border between the POEs, CBP relies on a network of systems 
comprising of information, integration, personnel, technology, and 
infrastructure. CBP has deployed sophisticated detection technology, 
including fixed towers, mobile surveillance units, ground sensors, and 
thermal imaging systems to increase the ability to detect illegal 
cross-border activity and contraband and maintains 654 miles of border 
fencing and other tactical infrastructure in key trafficking areas. The 
CBP ReUse effort utilizes Department of Defense (DOD) technologies, 
including aerostat technology, spectrometers, land, air, and maritime 
radar, and night-vision equipment that are not needed by DOD but can be 
used to satisfy critical border security missions with minimal up-front 
costs for DHS. These resources are matched with personnel of various 
skill sets who work with other Federal, State, and local law 
enforcement agencies to interdict TCO drug smuggling operations.
    As part of its efforts to prevent the illicit smuggling of drugs 
and other contraband, CBP maintains a high level of vigilance on 
avenues of egress from our Nation's borders. TCOs deploy a 
sophisticated network of scouts into rough and remote terrain as well 
as highly-populated urban areas along the Southwest Border, making the 
identification and disruption of scout activity highly challenging. CBP 
utilizes predictive analysis, available technology, targeted 
enforcement, and the ability to rapidly readjust counter surveillance 
activities to affect and degrade the ability of scouts to operate in a 
given environment. When the location of a scout is discovered, we work 
quickly to counter the scout's ability to take advantage of major 
vantage points and force spotter displacement or relocation; thus 
forcing them into more costly, vulnerable, and continuous 
reorganization.
    When tunnels are detected and investigated, each U.S. Border Patrol 
(USBP) sector follows established protocols for coordination, 
confirmation, assessment, investigation, exploitation, and remediation. 
The USBP is an active participant in ICE Homeland Security 
Investigations' (HSI) tunnel task forces. Since 2010, CBP has operated 
a Tunnel Detection and Technology Program, to integrate the efforts of 
CBP, ICE, the DHS Science and Technology Directorate (S&T), and the 
Drug Enforcement Administration (DEA), to address tunnel-related 
activities and technology.
    As an example of further CBP counter tunnel efforts, in March of 
2016, collaboration through the cross-border coordination initiative 
and bi-national tunnel teams led Mexican officials to alert USBP agents 
in Nogales, Arizona, that a tunnel entrance in Nogales, Sonora had been 
located. During their investigation, USBP discovered that the 
incomplete cross-border tunnel extended approximately 30 feet into the 
United States. Since agents discovered the first illicit tunnel in 1990 
in Douglas, Arizona, there have been 195 illicit cross-border tunnels 
discovered--194 along the Southwest Border and one discovered along the 
Northern Border near Lynden, Washington. Investigating a cross-border 
tunnel is a particularly dangerous task that requires an agent to crawl 
into what is usually a dark and confined space of unknown structural 
integrity and the potential to encounter a variety of threats. In some 
of the most narrow, dangerous tunnels, the Nogales tunnel team deploys 
a wireless, camera-equipped robot to investigate the passages. After a 
tunnel is investigated, the passage must be thoroughly remediated, or 
blocked to prevent further use.
At U.S. Ports of Entry
    To support CBP's evolving, more complex mission since September 11, 
2001, the number of CBP officers ensuring the secure flow of people and 
goods into the Nation through POEs has increased from 17,279 customs 
and immigration inspectors in 2003, to over 21,000 CBP officers and 
2,400 agriculture specialists today. At POEs, the Office of Field 
Operations (OFO) utilizes CBP officer expertise and experience, 
technology, such as non-intrusive inspection (NII) X-ray and gamma ray 
imaging systems, and canine teams to detect the illegal transit of 
drugs hidden on people, in cargo containers, and concealed in 
conveyances (See Exhibit 6 and 8-10).
    As of February 1, 2017, 313 Large-Scale (LS)-NII systems are 
deployed to, and in between, our POEs. In fiscal year 2016, LS-NII 
systems were used to conduct more than 6.5 million examinations 
resulting in more than 2,600 seizures and over 359,636 pounds of seized 
narcotics. NII systems are particularly valuable in detecting concealed 
contraband in vehicles. Two months ago, CBP officers working at the 
World Trade Bridge in Laredo, Texas, referred a driver and vehicle for 
secondary inspection. Using both non-intrusive inspection equipment and 
a narcotics-detection canine, CBP officers discovered and seized 201 
pounds of alleged crystal methamphetamine concealed in fiberglass 
pottery, with a street value of more than $4 million.\4\
---------------------------------------------------------------------------
    \4\ https://www.cbp.gov/newsroom/local-media-release/cbp-officers-
seize-more-4-million-crystal-meth-world-trade-bridge.
---------------------------------------------------------------------------
    Personal vehicles are not the only means by which TCOs attempt to 
smuggle illegal drugs. In April 2016, CBP officers used non-intrusive 
inspection equipment to discover approximately 121 pounds of heroin and 
8 pounds of cocaine in a shipping container of vegetables transiting 
from Ecuador to Miami, Florida, through the Red Hook Container Terminal 
in Brooklyn, New York.\5\ TCOs also move drugs--especially hard drugs 
such as heroin and methamphetamine--in smaller quantities to try to 
evade detection. This past December, CBP officers working express 
consignment operations in Cincinnati intercepted a shipment containing 
53.46 pounds of methamphetamines concealed in decorative concrete 
sculptures shipped from Mexico.\6\
---------------------------------------------------------------------------
    \5\ https://www.cbp.gov/newsroom/local-media-release/cbp-officers-
seize-approximately-121-pounds-heroin-and-8-pounds-cocaine.
    \6\ https://www.cbp.gov/newsroom/local-media-release/cincinnati-
cbp-seizes-stone-statue-filled-meth.
---------------------------------------------------------------------------
    The OFO National Canine Program (NCP) deploys specialized detection 
canine teams throughout the Nation. OFO's 489 canine teams are trained 
to detect narcotics, currency, firearms, and concealed humans. The 
majority of the canine teams are concentrated in four field offices 
along the Southwest Border. Of those 489 canine teams, 49 of these 
teams also trained to detect firearms and currency. During fiscal year 
2016, OFO canine teams were responsible for the seizure of 533,783 
pounds of narcotics, $38,629,557 in seized property, and $21,530,795 in 
currency seized. The currency/firearms detection canine program was 
also responsible for 154 firearms and 14,000 rounds of ammunitions 
seized.
    Because TCOs are also known to use legitimate commercial modes of 
travel and transport to smuggle drugs and other illicit goods, CBP 
partners with the private sector to provide anti-drug smuggling 
training to air, sea, and land commercial transport companies 
(carriers). The overall goals of these programs and their training 
component are to encourage commercial carriers to share the burden of 
stopping the flow of illicit drugs; to deter smugglers from using 
commercial carriers to smuggle drugs; and to provide carriers with the 
incentive to improve their security and their drug smuggling awareness. 
The Carrier Initiative Program is a voluntary training program directed 
at employees of carriers with route systems that are high-risk for drug 
smuggling. The Super Carrier Initiative Program is for those carriers 
that face an extraordinarily high-risk from drug traffickers. 
Participating carriers sign agreements stating that the carrier will 
exercise the highest degree of care and diligence in securing their 
facilities and conveyances, while CBP agrees to conduct site surveys, 
make recommendations, and provide training. CBP and various carriers 
have signed over 3,800 Carrier Initiative Agreements and 27 Super 
Carrier Agreements.
In the Air and the Sea
    To advance counternarcotic efforts in the air and at sea, CBP 
deploys capable and effective aerial and marine assets, including 
manned aircraft, unmanned aircraft systems and strategic and tactical 
aerostats, providing critical surveillance coverage and domain 
awareness (See Exhibit 7). CBP's Air and Marine Operations (AMO) 
employs high-speed Coastal Interceptor Vessels specifically designed 
and engineered with the speed, maneuverability, integrity, and 
endurance to intercept and engage a variety of suspect non-compliant 
vessels in offshore waters, including the Great Lakes on the Northern 
Border.
    CBP AMO P-3 Orion Aircraft (P-3s) have also been an integral part 
of the successful counternarcotic missions operating in coordination 
with Joint Interagency Task Force-South (JIATF-S). The P-3s patrol in a 
42 million-square-mile area known as the Source and Transit Zone, which 
includes more than 41 nations, the Pacific Ocean, Gulf of Mexico, 
Caribbean Sea, and seaboard approaches to the United States. In fiscal 
year 2016, CBP's P-3s operating out of Corpus Christi, Texas, and 
Jacksonville, Florida, flew more than 6,100 hours in support of 
counternarcotic missions resulting in 129 interdiction events of 
suspected smuggling vessels and aircraft. These events led to the total 
seizure of 87,657 kg of cocaine with an estimated wholesale value of 
$2.5 billion.\7\
---------------------------------------------------------------------------
    \7\ Drug Enforcement Administration, 2013 United States Illicit 
Drug Prices, page 7, DEA-DCW-DIR-012-15, January 2015. 2013 National 
Price Range, Cocaine, Approximately $28,700 per kilogram.
---------------------------------------------------------------------------
    In the air domain, AMO detects, identifies, investigates, and 
interdicts potential air threats to the United States including general 
aviation (GA) aircraft involved in the transit of contraband. The Air 
and Marine Operations Center (AMOC), a state-of-the-art law enforcement 
surveillance center, monitors complex airway traffic to identify 
illicit use of aircraft and those attempting to blend in with 
legitimate traffic. CBP's eight Tethered Aerostat Radar Systems (TARS) 
form a network of long-range radars deployed along the border, which 
can identify and monitor low-altitude aircraft and vessels. TARS and 
hundreds of other domestic and international radar data are integrated 
through AMOC, located in Riverside, California, to identify and track 
suspect aircraft incursions. Also, AMO actively participates in 
Operation Martillo, an international counter illicit trafficking 
initiative whereby U.S. and regional partner nations' military and law 
enforcement agencies patrol the air and sea environments in the 
Caribbean Sea, Gulf of Mexico, and the Eastern Pacific on a year-round 
basis.
                  intelligence and information sharing
    Substantive and timely information sharing is critical in targeting 
and interdicting TCOs involved with drug-trafficking along the 
Southwest and Northern borders. CBP contributes to several initiatives 
to improve and integrate the combined intelligence capabilities of 
multiple Federal entities--including DHS, the intelligence community, 
and DOD--as well as our State, local, Tribal, and international 
partners. For example, CBP participates in the Office of National Drug 
Control Policy-led Southwest Border Counternarcotics Strategy 
implementation effort, which includes a focus on the improvement of 
intelligence and information sharing among law enforcement agencies on 
the Federal, State, local, and Tribal levels. From the use of labs to 
improved relationships with partners, we are committed to the creation 
of an intelligence and information enterprise for the benefit of all 
those combating drug smuggling. Improved technology and enhanced 
capabilities have expanded the collection, analysis, and dissemination 
of information among law enforcement partners working to dismantle TCO 
networks.
    For example, the CBP Laboratories and Scientific Services 
Directorate uses advanced techniques to provide qualitative 
identification and quantitative determination as well as analysis of 
heroin, cocaine, marijuana, and methamphetamine to assist with 
identifying potential drug smuggling routes. In addition, S&T is 
working to develop, test, and pilot new technology for securing and 
scanning cargo, improving surveillance of the Southern border, and 
enhancing detection capabilities for radar-evading aircraft. S&T is 
also pursuing and fielding new technology to monitor storm drains, 
detect tunnels, track low-flying aircraft, monitor ports, and enhance 
current mobile/fixed radar and camera surveillance systems to increase 
border security. S&T-developed technology recently put into operational 
use at the U.S.-Mexico border includes a new general aviation aircraft 
scanner in Laredo, Texas, and a new Brownsville-Matamoros Rail Non-
Intrusive Inspection Microwave Data Transmission System.
    CBP also hosts monthly briefing/teleconferences with Federal, 
State, and local partners regarding the current State of the border--
the Northern Border and Southwest Border--in order to monitor emerging 
trends and threats and provide a cross-component, multi-agency venue 
for discussing trends and threats. The monthly briefings focus on 
narcotics, weapons, and currency interdictions and alien apprehensions 
both at and between the POEs. These briefings/teleconferences currently 
include participants from the government of Canada, the government of 
Mexico; ICE; USCG; DEA; FBI; U.S. Northern Command; Joint Interagency 
Task Force-South; Bureau of Alcohol, Tobacco, Firearms, and Explosives; 
U.S. Attorneys' Offices; Naval Investigative Command; State and Major 
Urban Area Fusion Centers; and other international, Federal, State, and 
local law enforcement as appropriate.
    CBP also contributes to the whole-of-Government effort to combat 
narcotics-related threats by sharing critical information on travelers 
and cargo with investigative and intelligence partner agencies to 
identify and disrupt sophisticated routes and networks. Recognizing the 
need for open and sustainable channels to share information with our 
law enforcement and intelligence partners, personnel are co-located at 
the National Targeting Center to support efforts to combat narcotics 
and contraband smuggling by integrating real-time intelligence and all-
source information into CBP targeting efforts and enforcement actions.
    Information exchange with our partners within the Government of 
Mexico, facilitated by the CBP Attache office in Mexico, has allowed 
for an unprecedented exchange of real-time information through 
deployments of personnel between our countries. Representatives from 
Mexican Customs (Servicio de Administracion Tributaria) are deployed at 
the CBP National Targeting Center in Sterling, Virginia, to share 
information and assist in targeting narcotics and other contraband. 
Likewise, CBP personnel are assigned to Mexico City and Panama under 
the Joint Security Program where we exchange alerts on suspicious TCO 
movements through the monitoring of our Advance Passenger Information 
System.
    Enhancing counternarcotic information sharing in the air and 
maritime environments, the AMOC integrates data from multiple sensor 
sources to provide real-time information on suspect targets to 
responders at the Federal, State, and local levels. AMOC's capabilities 
are enhanced by the continued integration of DHS and other Federal and 
Mexican personnel to increase efforts to identify, interdict, and 
investigate suspected drug trafficking in the air and maritime domains.
                        operational coordination
    A whole-of-Government approach that leverages interagency and 
international partnerships as a force multiplier has been and will 
continue to be the most effective way to keep our border secure. 
Providing critical capabilities toward the whole-of-Government 
approach, CBP works extensively with our Federal, State, local, Tribal, 
and international partners to address drug trafficking and other 
transnational threats along the Southwest Border, Northern Border, and 
coastal approaches. Our security efforts are enhanced through special 
joint operations and task forces conducted under the auspices of multi-
agency enforcement teams, composed of representatives from 
international and U.S. Federal law enforcement agencies who work 
together with State, local, and Tribal agencies to target drug and 
transnational criminal activity, including investigations involving 
National security and organized crime.
    Under the Department's Unity of Effort initiative, and with the 
establishment of three new DHS Joint Task Forces (JTFs), CBP is 
enhancing our collaboration with other DHS components--specifically ICE 
and USCG--to leverage the unique resources, authorities, and 
capabilities of each agency to more effectively and efficiently execute 
our border security missions against transnational criminal 
organizations, drug-trafficking, and other threats and challenges. The 
operation of the JTFs increases information sharing with Federal, 
State, and local law enforcement agencies and improves border-wide 
criminal intelligence-led interdiction operations to disrupt and 
dismantle TCO operations. CBP, together with our international, 
Federal, State, local, and Tribal partners, is committed to reducing 
the risk associated with TCOs by addressing threats within the Southern 
Border and Approaches Joint Operating Area.
    Joint Task Force--West (JTF-W), with CBP as executive agent, 
developed specific security objectives to frame and focus operations 
against prioritized TCOs, including integrating and aligning our 
intelligence capabilities; institutionalizing integrated counter-
network operations to identify and target TCOs and illicit networks; 
prioritizing investigative efforts to disrupt, degrade, and dismantle 
TCOs and illicit networks; and strengthening international, 
prosecutorial, and deterrent efforts against TCO enterprises and 
significant activity impacting the JTF-W Joint Operating Area. 
Additionally, JTF-W continues to plant the seed for the next evolution 
of border security by targeting priority TCOs and their supporting 
illicit networks in ways never done before. As a result of the joint 
infrastructure that has been established during this past year, JTF-W 
is now able to plan, coordinate, and execute integrated counter network 
operations beyond traditional DHS component operational capabilities 
and the immediate border. The ability to leverage the full spectrum of 
DHS intelligence, interdiction, and investigative efforts has maximized 
consequence application to illicit network members exploiting our 
operational seams, prosecutorial thresholds, and those abusing current 
immigration benefits.
    TCO activity is a global problem and CBP continues to work with our 
international partners, especially the government of Mexico to share 
information and leverage resources to combat this threat. Through the 
21st Century Border Management Initiative, the U.S. Government, and the 
government of Mexico are working to strengthen our collaborative 
relationship and efforts to secure and facilitate the cross-border 
flows of people and cargo. International Liaison Units (ILU) facilitate 
cooperation between U.S. and Mexican law enforcement authorities as 
part of a multi-layered effort to target, disrupt, and dismantle 
criminal organizations.
    The Cross Border Coordination Initiative (CBCI) provides an 
operational framework to enhance public safety and degrade and disrupt 
the ability of TCOs to engage in the smuggling of illegal drugs, 
currency, weapons, ammunition, and people. CBP works with the 
government of Mexico to deliver targeted consequence strategy through 
patrols, interdictions, prosecution, investigations, and intelligence. 
In fiscal year 2016, USBP and the Mexican Federal Police conducted 
1,584 coordinated patrols. Additionally, bi-national operations, such 
as Operation Double Threat/Blue Thunder, are innovative and mutually 
beneficial mirrored patrols that are key to border security and safety 
for both countries. Operation Double Threat/Blue Thunder took place 
between USBP and Mexican Federal Police on April 17-30, 2016, in Sonora 
and Nogales, Arizona. During the time of the operation, entries and 
arrests dropped by almost 50 percent in the targeted zone, and 3,504 kg 
of marijuana, 727g of cocaine and 55g of methamphetamine were seized.
    On Eastern Pacific and Western Caribbean waters, CBP partners with 
the USCG and the Mexican Navy (SEMAR) to conduct maritime operations on 
both sides of the border and maintain a dynamic presence. For example, 
AMO along with DOD's Air Forces North (AFNORTH) have partnered to 
deploy International Air and Marine Operations Surveillance Systems (I-
AMOSS) to SEMAR locations. This system has proven to be an invaluable 
part of their anti-cartel mission and contributes to CBP/USCG/SEMAR 
joint planning. As such, efforts to expand this capability to other 
SEMAR locations are under way. Moreover, AMO supports SEMAR with 
Operation Albatros, providing maritime patrol aircraft over the Eastern 
Pacific with a SEMAR host-nation-rider on-board acting as a mission 
commander. Albatros patrols target cocaine-laden vessels transiting 
from the source and transit zone to the shores of Mexico.
    CBP is committed to working with the government of Mexico to 
identify and prosecute TCOs, and is working with Mexico Attorney 
General (PGR) to explore additional areas where CBP and the government 
of Mexico can target and degrade TCOs. For example, the Operation 
Against Smugglers Initiative on Safety and Security (OASISS) is a bi-
national prosecutorial program with the PGR that is focused on 
combating human smuggling across the Southwest Border, by identifying 
and prosecuting Mexican nationals arrested for alien smuggling in the 
United States. Since the implementation of OASISS in August 2005 to 
October 2016, a total of 2,556 cases have been generated in the United 
States. From these cases, a total of 3,009 principals have been 
presented to the government of Mexico for prosecution, and 2,196 of 
those principals were accepted for prosecution. In fiscal year alone, 
99 criminal cases were generated in the United States with a total of 
111 principals and 70 of those principals were accepted by the 
government of Mexico for prosecution.
    AMOC's coordinating efforts with the government of Mexico and the 
deployment of shared surveillance technology continue to enable the 
government of Mexico to focus aviation and maritime enforcement efforts 
to better combat TCO operations in Northern Mexico and the contiguous 
U.S.-Mexico border. AMOC's joint collaboration with the government of 
Mexico leverages intelligence and operational capabilities to further 
both air and maritime domain awareness. During fiscal year 2016, this 
improved collaboration resulted in 15 Mexico-based seizures, six of 
which were mixed loads of narcotics. Smuggling events involved 
aircraft, semi-submersibles, pleasure craft, and panga-type 
conveyances. The most recent example of these efforts was in October 
2016, when AMOC detected and tracked an aircraft to a landing in Baja 
California, Mexico and alerted Mexican authorities. Mexican air and 
ground forces responded and reported the seizure of a Cessna 206, one 
vehicle, and 504 lbs. of methamphetamine.
    In January 2016, AMO's Tucson Air Branch participated in Operation 
``El Diablo Express,'' a HSI-led investigation, resulting in a multi-
agency operation that utilized HSI, DEA, FBI, Arizona DPS, Scottsdale 
PD, other CBP components, and Mexican government agents. The operation 
was designed to combat Mexican drug cartels operating in Sonora, 
Mexico, south of Arizona. AMO air crews were instrumental in escorting 
Mexican Government aircraft and personnel through Arizona airspace on 
the day of mission, and provided real-time information to them as they 
covertly crossed the border back into Mexico to conduct an early 
morning raid on a suspected drug cartel location, leading to multiple 
arrests and seizures.
    It is important to acknowledge the significant strides that Mexico 
has taken in recent years to address transnational organized crime 
generally and narcotics smuggling specifically. Our relationship with 
Mexican counterparts is stronger today than it has ever been and their 
officers face the same challenges and threats that CBP experiences. We 
receive information from Mexican authorities on a daily basis that 
helps us better target narcotics smugglers at the border. In 2016, 
CBP's commissioner participated in a high-level bilateral and 
interagency security cooperation meeting in Mexico City, where senior 
Mexican officials committed to working with the U.S. Government even 
more closely--including expanding efforts to combat heroin cultivation, 
production, and trafficking, and sharing more information on smuggling 
routes and networks. CBP will continue to work in close cooperation 
with our counterparts in Mexico as we seek to identify, interdict, 
investigate, and prosecute TCOs.
                               conclusion
    CBP, through collaboration and coordination with our many Federal, 
State, local, Tribal, international government, and other partners, has 
made great strides in protecting the integrity and security of our 
borders. The investments over the years in our border security have 
been valuable and have helped shape the current border environment. 
Vulnerabilities have been addressed and this has led to the reduction 
of illicit activity in many areas along the border. CBP continues to 
maintain a vigilant watch on the changing dynamics of border security 
threats.
    With continued support from Congress, CBP, in coordination with our 
partners, will continue to refine and further enhance the effectiveness 
of our detection and interdiction capabilities to combat transnational 
threats and the entry of illegal drugs into the United States. 
Furthermore, through the JTFs, we will continue to work with the 
intelligence community and our law enforcement partners to improve the 
efficiency of information sharing with relevant partners, to guide 
strategies, identify trafficking patterns and trends, develop tactics, 
and execute operations to address the challenges and threats posed by 
TCOs to the safety and security of the American public. The 
establishment of JTFs marks a renewed commitment to seek out and 
coordinate optimal, multi-component authorities, capabilities, 
competencies, and partnership expertise to combat all threats to the 
homeland.
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of subcommittee, thank you for the opportunity to testify today. I look 
forward to your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. McSally. Thank you, Commander Beeson.
    The Chair now recognizes Mr. Allen for 5 minutes.

   STATEMENT OF MATTHEW C. ALLEN, ASSISTANT DIRECTOR FOR HSI 
INVESTIGATIVE PROGRAMS, HOMELAND SECURITY INVESTIGATIONS, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Good morning, Chairwoman McSally, Ranking Member 
Vela, and distinguished Members. Thank you for the opportunity 
to appear before you today to discuss the threats posed by 
transnational criminal organizations, and the efforts of the 
U.S. Immigration and Customs Enforcement to identify, target, 
investigate, disrupt, and dismantle these criminal elements.
    Today I will provide ICE's perspective on the sophisticated 
smuggling threats that we face on our Southwest Border, the 
approaches that lead up to our border, and what we do to 
address TCOs and their smuggling activities before contraband 
arrives at our borders and even once it makes it to the 
interior of the United States.
    I have brought with me today a troubling graphic that 
represents the interagency assessment of the areas of influence 
of the major Mexican transnational criminal organizations in 
the United States. I want to thank the Drug Enforcement 
Administration for sharing that and its use today.
    The Mexican cartels, notably Sinaloa, Jalisco New 
Generation, Los Zetas, and the Gulf Cartels, stretch across and 
beyond the Southwest Border, operating through networks and 
loose affiliations with smaller organizations in cities across 
the United States.
    As many of you know first-hand, the Southwest Border is a 
very diverse environment with vast maritime and land border 
areas where the cartels have adapted their methods and the 
cargo to the local environment.
    From an operational point of view, this means that there is 
not a single strategy, tactic, or technology that will succeed 
in eliminating the smuggling threat on every part of the 
Southwest Border.
    To give you a sense of the variety of smuggling challenges 
that we collectively face, it is important to start by talking 
about the specific drug threats such as heroin, fentanyl, 
cocaine, methamphetamine, and marijuana.
    Mexican-produced heroin has become the most significant 
drug consumed in the United States. The purity of Mexican-
produced heroin makes it marketable because it can be smoked or 
snorted, as well as injected intravenously.
    The Mexican cartels have also quickly added fentanyl to 
their inventory in response to the explosion of opioid abuse in 
the United States. The smugglers include fentanyl in contraband 
loads also containing heroin and our methamphetamine, 
reinforcing the poly drug nature of the cartels.
    Mexico is a transit country for South American-sourced 
cocaine, which is most exclusively seized at the ports of entry 
in modified compartments of privately-owned vehicles, or deeply 
concealed within commercial conveyance and cargo shipments.
    The majority of methamphetamine consumed in the United 
States is now produced in Mexico using precursor chemicals that 
come from Asia. Methamphetamine is almost exclusively seized in 
modified compartments of personally-owned vehicles. The second-
most common method of smuggling methamphetamine is by 
pedestrians.
    Last, marijuana which is cultivated by Mexican cartels, 
makes Mexico the largest foreign supplier of marijuana to the 
U.S. drug market. The majority of the marijuana seized by the 
DHS agencies is seized as it is being smuggled between the 
ports of entry.
    When marijuana is seized at U.S. ports of entry it is most 
often found concealed among commercial cargo. Recognizing that 
the border in Southern California is different than the border 
in Arizona, New Mexico, and Texas, the cartels adapt their 
smuggling methods to suit a specific area, blending into normal 
traffic in a given area in order to avoid law enforcement 
attention.
    The cartels conduct surveillance on law enforcement 
operations along the border, principally focusing on U.S. 
Customs and Border Protection operations at and between the 
POEs.
    As the Department changes its tactics and techniques or 
introduces new technology and infrastructure, the cartels adapt 
their operations to undermine our border security efforts.
    One of the major factors allowing the cartels to sustain 
their existence and proliferate is public corruption in both 
Mexico and the United States. The cartels rely on corrupt 
Mexican and U.S. law enforcement officials to operate and avoid 
seizures and arrest.
    In response to the smuggling threats along the Southwest 
Border, ICE has assigned more than 1,500 special agents and 150 
intelligence research specialists to our Southwest Border 
offices. Additionally, ICE leads and participates in a number 
of task forces focusing on investigating this criminal element.
    Our relationship with Mexico has also proven to be an 
important partnership in the fight against TCOs. For example, 
taking down the cartels' top leadership as evidenced by the 
recent extradition of Joaquin Guzman Loera, aka El Chapo, 
demonstrates how binational cooperation can affect cartel 
leadership.
    Thank you again for the opportunity to appear before you 
today and for your continued support of ICE and its law 
enforcement mission. ICE is committed to stemming cross-border 
criminal organizations through the various efforts I have 
discussed today, and I look forward to your questions.
    [The prepared statement of Mr. Allen follows:]
                 Prepared Statement of Matthew C. Allen
                           February 16, 2017
    Chairman McSally, Ranking Member Vela, and distinguished Members: 
Thank you for the opportunity to appear before you today to discuss 
threats posed by Transnational Criminal Organizations (TCOs) and the 
efforts of U.S. Immigration and Customs Enforcement (ICE) to identify, 
target, investigate, disrupt, dismantle, and bring to justice these 
criminal elements.
    ICE Homeland Security Investigations (HSI) leverages its broad 
authority, unique investigative tools, and global footprint to secure 
our borders. We work in close coordination with U.S. Customs and Border 
Protection (CBP), the U.S. Coast Guard (USCG) and many other domestic 
and international law enforcement and customs partners to target TCOs. 
Today, I will provide ICE's perspective on the sophisticated smuggling 
threats that we face on our Southwest Border, the approaches that lead 
up to our border and some of what we do to address TCOs and their 
smuggling activities before contraband arrives at our borders, and even 
in the interior of the United States.
                 the cartels along the southwest border
    The primary TCOs that threaten the Southwest Border of the United 
States are Mexican Drug cartels (the cartels). Over the last decade the 
United States, working with our Mexican law enforcement and military 
counterparts, has had sustained success in attacking cartel leaders, as 
evidenced by the recent extradition of Joaquin Guzman Loera, aka ``El 
Chapo'', to face prosecution in the United States. However, every law 
enforcement success against the cartels is challenged by the fact that 
the cartels are highly networked organizations with built-in 
redundancies that adapt on a daily basis based on their intelligence 
about U.S. border security and law enforcement.
    I have brought with me today a troubling graphic that represents 
the interagency assessment of where the various cartels in Mexico 
operate and the ``approaches'' or ``corridors'' that each controls 
along the U.S. Southwest Border. Mexican cartels, notably Sinaloa, 
Jalisco New Generation, Los Zetas, and the Gulf cartels, stretch across 
and beyond the Southwest Border, operating through networks and loose 
affiliations with smaller organizations in cities across the United 
States. The areas controlled by each cartel have evolved over time, 
often as a result of U.S. or Mexican law enforcement successes that 
have weakened cartel influence in certain areas, and as alliances 
between cartel leadership shifts over time.
    In addition to drug smuggling, another criminal threat that we face 
along our Southwest Border is human smuggling. One of the questions we 
are often asked is whether human smuggling organizations are part of 
the cartels or operate as distinct criminal enterprises. Based on HSI 
investigations and intelligence, it is our opinion that, although alien 
smuggling organizations pay taxes and fees to the cartels to smuggle in 
a specific geographic area, they are generally run as distinct criminal 
enterprises in both Mexico and the United States. Certain members of 
these criminal enterprises control the major drug markets and others 
control a portion of the border on behalf of their cartel. We believe 
that these drug cartel leaders and associates play a coordinating role 
in the immediate border areas, dictating when and where human smugglers 
will be allowed to cross the border. This coordination ensures human 
smugglers and their human cargo do not bring unwanted law enforcement 
attention, particularly in the United States, to their smuggling 
efforts. Our investigations have shown that when human smugglers do not 
heed warnings from drug smuggling organizations about where and when 
they smuggle, they can be targeted for physical violence, including 
murder, by cartel members.
              smuggling trends along the southwest border
    As many of the Members of this subcommittee know first-hand, the 
Southwest Border is a very diverse environment, starting with a 
maritime border in the Gulf of Mexico and on the Pacific Ocean that 
transitions to vast land border areas that include rivers, rural 
agricultural lands and densely populated urban areas along the nearly 
2,000 miles of our border. In response to these vastly different areas, 
the cartels adapt their methods and cargo to the smuggling environment. 
From an operational point of view, this means that there is not a 
single strategy, tactic, or technology that will succeed in eliminating 
the smuggling threat on every part of the Southwest Border.
    Mexico is a major source and transit country for illicit drugs 
destined for the United States, including marijuana, cocaine, 
methamphetamine, heroin, and, more recently, fentanyl. Intelligence 
reports indicate that Mexico is not only a source country for the 
production of fentanyl, it is also a transit country for fentanyl 
originating from Asia. Finally, in the last two decades, Mexico has 
also become the largest transit country for South American-sourced 
cocaine destined for the United States.
    As a result of Mexico's dominant role as either a source or transit 
point for illicit drugs destined for the United States, it has also 
become a primary destination for the illicit proceeds that the cartels 
earn from the distribution networks in the United States. Mexican 
cartels use a variety of techniques to repatriate illicit proceeds, 
from bulk cash smuggling to sophisticated trade-based money laundering 
schemes. Many of the more complex techniques rely on third-party money 
launderers and corrupt financial institutions.
    To give you a sense of the variety of smuggling challenges that we 
collectively face, it is important to start by talking about the 
specific drug threats, smuggling methods, and modes used across the 
spectrum of the Southwest Border.
Heroin
    Mexico has become the most significant source of heroin consumed in 
the United States, and according to the 2016 National Drug Threat 
Assessment Summary, the U.S. Government estimated that Mexican cartels' 
potential production of heroin was 70 metric tons in 2015, a 66 percent 
increase from 2014. The purity of Mexican-produced heroin has also 
increased over time, making it more marketable because it can be smoked 
or snorted as well as injected intravenously.
Fentanyl
    The Mexican cartels have quickly added fentanyl to their smuggled 
drugs in response to the explosion of opiate abuse in the United 
States. Based on recent seizures it has been learned that smugglers are 
mixing fentanyl in contraband loads also containing heroin and/or 
methamphetamine, reinforcing the poly drug nature of the cartels. While 
U.S. law enforcement continues to assess how much of the fentanyl 
market in the United States is supported by Mexican-sourced fentanyl, 
the size of individual seizures and the proximity of Mexico to the U.S. 
drug market is a troubling sign.
Cocaine
    Mexico is a transit country for South American-sourced cocaine. 
Cocaine is almost exclusively seized at Ports of Entry (POEs) in non-
factory compartments of privately-owned vehicles (POVs). Alternatively, 
the cocaine may be deeply concealed within commercial conveyances and 
cargo shipments.
Methamphetamine
    The majority of methamphetamine consumed in the United States is 
now produced in Mexico using precursor chemicals from Asia. 
Methamphetamine is almost exclusively seized in non-factory 
compartments of POVs. The second most common method of smuggling 
methamphetamine is by pedestrians who secrete it on their bodies or 
within body cavities. Methamphetamine is seized in both crystalline and 
liquid forms.
Marijuana
    As I mentioned earlier, the Mexican cartels cultivate marijuana, 
with Mexico being the largest foreign supplier of marijuana to the U.S. 
drug market. The majority of the marijuana seized by DHS agencies is 
seized as it is being smuggled between the POEs. When marijuana is 
seized at U.S. POEs it is most often found concealed among commercial 
cargo shipments.
Southwest Border Smuggling Methods and Related Challenges
    Recognizing that the border in Southern California is different 
than the border in Arizona, New Mexico, and Texas, the cartels adapt 
their smuggling methods to suit a specific area. The unifying goal of 
all smugglers is to try to blend into normal traffic in a given area in 
order to avoid law enforcement attention. On a daily basis the cartels 
conduct surveillance of law enforcement operations along the border, 
principally focusing on CBP operations at and between the POEs. As the 
Department changes its tactics and techniques, or introduces new 
technology and infrastructure, the cartels adapt their operations and 
probe our border security to determine the best way to accomplish their 
goals.
Land Ports of Entry
    At POEs along the Southwest land border, smugglers use a wide 
variety of tactics and techniques for concealing drugs. Our special 
agents work every day with CBP officers from the Office of Field 
Operations to identify, seize, and investigate drug smuggling 
organizations that attempt to exploit POEs to introduce drugs into the 
United States. Within the POE environment there are three distinct 
threat areas exploited by the cartels: Pedestrians; POVs; and 
Commercial Cargo. Pedestrians are primarily used to smuggle cocaine, 
heroin, and methamphetamine on or within their bodies. POVs are used to 
smuggle cocaine, heroin, fentanyl, methamphetamine, and marijuana, 
often using deep concealment methods like non-factory compartments, gas 
tanks, and other voids. At Commercial POEs, the cartels utilize 
commercial tractor trailers to commingle narcotics with legitimate 
commercial goods or to conceal the narcotics within the tractor 
trailers themselves.
    The cartels also attempt to exploit CBP programs that facilitate 
the expedited entry of travelers and cargo into the United States. CBP 
seizures and ICE investigations have documented smuggling 
organizations' attempts to exploit the Secure Electronic Network for 
Travelers Rapid Inspection (SENTRI) and Free and Secure Trade (FAST) 
Programs.
    The cartels also use spotters/scouts and counter-surveillance 
techniques both at and between the POEs in order to increase their 
chances of success in smuggling ventures. Spotters/scouts watch and 
report on border law enforcement activities.
Between the Ports of Entry
    The cartels use the areas between the POEs primarily to smuggle 
marijuana in bulk. In these areas, the cartels use a variety of 
techniques that are tailored to the terrain and other environmental 
factors. In Texas, the Rio Grande River creates a natural barrier that 
poses unique challenges for the U.S. Border Patrol.
    Outside of urban areas along the land border, one tactic used by 
the cartels is vehicle incursions, or ``drive-throughs,'' whereby 
smugglers breach the border by either going over or through border 
fences. Smugglers move vehicles over the fence using ramps or, on more 
rare occasions, lift vehicles over the fence using cranes. Going 
through the fence involves cutting fence panels and lifting them up or 
creating a gate in the fence allowing a vehicle to pass through. 
Vehicle incursions often rely on networks of scouts that are staged on 
the area's highest points to warn them of U.S. Border Patrol or other 
law enforcement presence.
    In areas where the cartels cannot conduct vehicle incursions, they 
have experimented with ways to throw or launch marijuana bundles over 
the fence to co-conspirators waiting in the United States. Recently, we 
have seen cartel attempts to use air or propane cannons to launch 
bundles of marijuana weighing more than a hundred pounds over the 
border fence.
    Another tactic cartels use in remote areas between the POEs is to 
have backpackers carry bundles of marijuana on their backs using 
improvised backpacks made of burlap or other materials. Backpackers 
often travel in groups and have been known to travel for days before 
getting to pre-designated locations where they are picked up by other 
members of the organization in the United States.
    Smuggling by general aviation aircraft from Mexico has not been a 
significant threat since the late 1990's. However, in the last decade 
we have seen the cartels experiment with the use of ultralight aircraft 
to smuggle marijuana in Arizona and eastern California. More recently 
we have also seen the cartels experiment with the use of small 
recreational drones to smuggle very small quantities of drugs, often 
just a couple of pounds.
    In 1990 the first cross-border tunnel was discovered in Douglas, 
Arizona. Since that time a total of 194 tunnels (both completed and in 
progress) have been located along the Southwest Border, primarily in 
Arizona and Southern California. The discovery of illicit subterranean 
tunnels is evidence that smugglers are moving away from traditional 
smuggling techniques due to enhanced law enforcement efforts. In 
recognition of the significant smuggling threat present in Arizona and 
San Diego, ICE leads two Tunnel Task Forces in San Diego and Nogales 
under the auspices of the Border Enforcement Security Task Force (BEST) 
Program, described in more detail below.
Maritime Smuggling
    As infrastructure, technology, and staffing have been added to the 
border in the San Diego area, we have seen an increase in maritime 
smuggling of marijuana from Mexico to California coastal areas north of 
San Diego. The cartels use pleasure boats or small commercial fishing 
vessels known as ``pangas'' that are able to achieve relatively high 
speeds under the cover of darkness to attempt to evade detection by CBP 
and USCG surface patrol vessels and patrol aircraft. Bulk quantities of 
cocaine are seized along the maritime approaches to our border during 
the transportation phase through either the Eastern Pacific Ocean or 
the Caribbean Sea prior to being broken down into much smaller loads 
for transport along land routes through Central America and Mexico.
Corruption
    One of the major factors allowing the cartels to sustain their 
existence and proliferate is public corruption in both Mexico and the 
United States. In Mexico, the cartels rely on corrupt Mexican law 
enforcement and other public officials at every level of government to 
operate. U.S. law enforcement is not immune to corruption by the 
cartels, who have used corrupt law enforcement officers from CBP, ICE, 
and other Federal, State, and local law enforcement agencies to avoid 
seizures and arrests.
         attacking transnational criminal organizations (tco s)
    In response to the smuggling threat along the Southwest Border, we 
have assigned more than 1,500 special agents and almost 150 
intelligence research specialists to our Southwest Border offices.
    In fiscal year 2016, HSI drug smuggling investigations conducted by 
the five HSI Special Agent in Charge Southwest Border offices resulted 
in 5,659 criminal arrests, 3,941 indictments, 3,383 convictions, and 
330 administrative immigration arrests. We have continued to 
collaborate with our partners in Federal, State, and local law 
enforcement agencies to identify, target, investigate, disrupt, and 
dismantle the cartels. The following is a list of the various 
initiatives we use to combat TCOs:
DHS Joint Task Forces
    In 2015 the Secretary of DHS created three Joint Task Forces (JTFs) 
to address the smuggling threats identified in the Southern Border and 
Approaches Campaign Plan. Two of the JTFs, JTF-East (JTF-E) and JTF-
West (JTF-W), are geographically-focused task forces that concentrate 
on the southern land and maritime border of the United States and the 
approaches to our border all the way to Central and South America. HSI 
has provided Senior Executives to serve as the Deputy Directors of JTF-
E and JTF-W, as well as staff-level support in the JTF-E and 
JTF-W Joint Staffs.
    ICE has been designated as the executive agent for the third Joint 
Task Force, Joint Task Force Investigations (JTF-I), with other DHS 
components supporting. JTF-I is a joint, integrated, ``functional'' 
task force that has the responsibility of targeting top-tier criminal 
investigations and supporting JTF-E and JTF-W. The success of JTF-I in 
these diverse environments depends upon a high level of cooperation 
among HSI and our Federal, State, local, and foreign partners in 
consolidating resources and leveraging unique international maritime 
authorities in combating TCOs.
Border Enforcement Security Task Forces (BEST)
    Our BEST units employ a threat-based/risk mitigation investigative 
task force model that recognizes the unique resources and capabilities 
of all participating law enforcement partners. This model enables each 
unit to apply a comprehensive approach to combating TCOs, while 
recognizing the distinctive circumstances and threats facing the 
various border environments, be it land borders, seaports, or airports. 
Additionally, BEST units are designed to incorporate other DHS-partner 
agencies, including CBP and the Transportation Security Administration, 
and are vehicles for establishing unity of effort, the cornerstone of a 
successful DHS mission. BEST units further solidify HSI's role as the 
primary investigative entity for DHS.
    We continue to expand the BEST program, which currently operates in 
44 locations throughout the United States. BEST leverages more than 
1,000 Federal, State, local, and foreign law enforcement agents and 
officers representing over 100 law enforcement agencies. BEST also 
provides a co-located space that allows for collaboration in conducting 
intelligence-driven investigations aimed at identifying, disrupting, 
and dismantling TCOs that operate in the air, land, and sea 
environments. In fiscal year 2016, the BEST program accounted for 3,710 
criminal arrests, 991 administrative arrests, and prosecutors obtained 
2,248 indictments and 1,923 convictions.
Money-Laundering Efforts
    The cartels move illicit proceeds, hide assets, and conduct 
transactions globally. Among the various methods cartels use to 
transfer and launder their illicit proceeds are bulk cash smuggling, 
trade-based money laundering, funnel accounts and professional money 
launderers, and misuse of money service businesses (MSB) and emerging 
payment systems. The cartels exploit vulnerabilities in the financial 
system and conduct layered financial transactions to circumvent 
regulatory scrutiny, which presents difficulties for authorities 
attempting to distinguish between licit and illicit use of the 
financial system. HSI has refined our ability to target money-
laundering and financial violations through various techniques, to 
include interagency investigations, training and capacity-building, 
targeted financial sanctions, and direct engagement with at-risk 
financial institutions and jurisdictions.
    U.S. Anti-Money Laundering laws and regulations impose customer 
identification, recordkeeping, and reporting obligations on covered 
financial institutions that help deter criminals from moving illicit 
proceeds through the financial system. These preventive measures also 
create valuable evidentiary trails for law enforcement to employ during 
an investigation. As such, HSI has an abundance of investigative tools 
in our arsenal to disrupt and dismantle cartel money laundering 
operations as well as to discourage new actors from engaging in illicit 
activity.
    Our National Bulk Cash Smuggling Center (BCSC), located in 
Burlington, Vermont, generates long-term, multi-jurisdictional bulk 
cash investigations by analyzing incident reports and conducting 
intelligence-driven operational support to field offices. When 
contacted by Federal, State, and local law enforcement for support, the 
BCSC assists that jurisdiction as much as possible by engaging the full 
scope of its law enforcement intelligence data sources and referring 
requests for assistance to local HSI field offices for immediate 
response. Since its inception in August 2009, the BCSC has initiated or 
substantially contributed to over 1,428 investigative leads, which have 
yielded 1,182 criminal arrests, 747 indictments, 546 State or Federal 
convictions, and seizures of bulk cash totaling over $326.5 million.
HIDTA--High-Intensity Drug Trafficking Area Task Forces
    The High-Intensity Drug Trafficking Area (HIDTA) Program was 
initiated in 1990 by the Office of National Drug Control Policy (ONDCP) 
in order to designate certain geographical areas as having especially 
high concentrations of drug trafficking activities such as 
distribution, transportation, and smuggling. The HIDTA Program provides 
these areas with Federal funding, which supports coordinated law 
enforcement counter drug efforts.
    The ONDCP designates geographic areas as HIDTAs and allocates 
Federal resources to establish formal cooperative law enforcement 
efforts between local, State, and Federal drug enforcement agencies. 
HSI, using its combined immigration and customs authorities, leads 
several HIDTA initiatives along the Southwest Border.
    The OCDETF Program allows our Special Agents to partner and 
collaborate in investigations using our unique and far-reaching 
authorities to enforce and regulate the movement of carriers, persons, 
and commodities between the United States and other nations. We have 
dedicated personnel on all 11 OCDETF co-located Strike Forces. These 
Strike Forces logically extend the OCDETF program beyond the creation 
of prosecutor-led task forces that join together on case-specific 
efforts and then disband at the end of the investigation. Now, 
permanent task force teams work together to conduct intelligence-
driven, multi-jurisdictional operations against the continuum of 
priority targets. We also participate in the OCDETF Fusion Center, 
which support investigations of TCOs through interagency coordination.
International Partners and Cooperation
    ICE HSI works closely with our Federal law enforcement and 
international partners to disrupt and dismantle TCOs. We have 63 
offices in 47 countries and are uniquely positioned to utilize 
established relationships with host country law enforcement, to include 
the engagement of Transnational Criminal Investigative Units (TCIUs). 
These TCIUs are composed of DHS-trained host country counterparts who 
have the authority to investigate and enforce violations of law in 
their respective countries. Since our law enforcement officers working 
overseas do not possess general law enforcement or investigative 
authority in most host countries, the use of these TCIUs enables ICE to 
promote direct action in its investigative leads while respecting the 
sovereignty of the host country and cultivating international 
partnerships. These efforts, often thousands of miles from the U.S.-
Mexico border in countries like Colombia and Panama, essentially act as 
an outer layer of security for our Southwest Border.
Working with Mexican Authorities
    Mexico has proven to be an outstanding partner in the fight against 
TCOs, taking down the cartels' top leadership and helping in efforts to 
dismantle these organizations. ICE's attache Office in Mexico City is 
the largest ICE presence outside of the United States. ICE has 
coordinated the establishment of TCIUs in Mexico comprised of Mexican 
law enforcement officers. Through our attache in Mexico City and 
associated sub-offices, HSI assists in efforts to combat transnational 
drug trafficking, weapons smuggling, human smuggling, and money-
laundering syndicates in Mexico. ICE attache personnel work daily with 
Mexican authorities to combat these transnational threats. 
Additionally, ICE--along with other DHS components--actively works 
through the Department of State to provide training and technical 
assistance to our Mexican counterparts. The spirit of collaboration and 
joint effort between DHS components and our counterparts in Mexico is 
unprecedented.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. ICE 
is committed to stemming cross-border criminal organizations through 
the various efforts I have discussed today. I appreciate your interest 
in these important issues.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. McSally. Thank you Mr. Allen.
    The Chair now recognizes Ambassador Arreaga for 5 minutes.

   STATEMENT OF LUIS E. ARREAGA, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Arreaga. Thank you very much. Chairwoman McSally, 
Ranking Member Vela, distinguished Members of the subcommittee, 
thank you for the opportunity to appear before you to discuss 
the Department of State's efforts to combat transnational 
organized crime in the Western Hemisphere.
    With your permission, I have a formal statement which I 
would like to submit for the record.
    As this committee knows well, transnational crime 
undermines our border security, inflicts harms in our 
communities and threatens the rule of law. The Department of 
State's Bureau of International Narcotics and Law Enforcement 
Affairs, INL, which I have the honor to represent, leads our 
country's efforts to combat crime overseas.
    We do this by supporting U.S. law enforcement agencies' 
efforts to strengthen the capacity of partner governments' 
criminal justice system. The fact is that we need strong and 
effective partners overseas to combat narcotics and production 
and trafficking.
    We advance our efforts through four partnerships, the 
Merida Initiative, the Central America Regional Security 
Initiative, the Caribbean Basin Security Initiative, and our 
long-standing partnership with Colombia.
    Under the Merida Initiative, we are working to strengthen 
the capacity of Mexican institutions to identify, investigate, 
and dismantle criminal networks to uphold the rule of law and 
to protect our shared border.
    Since 2007, the United States has delivered nearly $1.6 
billion in assistance. This includes inspection and detection 
equipment, which is now deployed along Mexico's border, as well 
as training and equipping to enhance the capacity of Mexican 
officials to identify and dismantle clandestine drug 
laboratories and to carry out complex investigations of 
organized crime.
    Our investments, and I emphasize this, have fostered 
unprecedented collaboration between American and Mexican law 
enforcement authorities. In Central America, violence from 
gangs and other drug trafficking criminal networks are driving 
citizens to leave their home in search of safety, opportunity, 
and family living abroad.
    Many travel through Mexico in an attempt to reach the 
United States. Our programs in Central America help governments 
strengthen border security and fight narcotraffickers, 
transnational gangs, and human smugglers.
    In 2016, Central American security units, many of which are 
supported by U.S. law enforcement agencies, reported seizing 
over 116 metric tons of cocaine. On the corruption front, 
Honduras fired nearly 2,000 corrupt police officers, while in 
Guatemala the attorney general is bringing corruption charges 
against former and current high-level government officials.
    In the Caribbean, approximately 10 percent of cocaine 
movement is destined for the United States transit region. Our 
program supports maritime interdiction by training and 
equipping law enforcement agencies in partner countries. In 
2015, reported cocaine seizures in partner countries reached 24 
metric tons, a 152 percent increase over the previous years.
    Let me conclude with Colombia. Colombia remains the world's 
largest producer of cocaine and is the origin of approximately 
90 percent of the amount seized in the United States.
    In light of the troubling increase in coca cultivation 
since 2013, we know that we need to deepen our collaboration 
with our Colombian partners. The good news is that Colombia, 
with our support, has intensified their interdiction efforts. 
In fact, cocaine seizures increased 42 percent in 2016.
    The Colombian government has been our steadfast partner in 
the fight against crime and narcotics since before the start of 
Plan Colombia in 1999. We are confident that this partnership 
will endure.
    Let me close by reiterating our commitment to continue 
working with our partner governments to protect our homeland. 
But it must be said that achieving lasting change will be 
neither easy nor quick. We are encouraged however by results to 
date and remain confident that a sustained investment will 
benefit the security of the United States.
    Chairwoman McSally, Ranking Member Vela, again, thank you 
for the opportunity to appear before you today. I look forward 
to your questions.
    [The prepared statement of Mr. Arreaga follows:]
                 Prepared Statement of Luis E. Arreaga
                           February 16, 2017
    Chairwoman McSally, Ranking Member Vela, distinguished Members of 
the subcommittee: Thank you for the opportunity to appear before you 
today to discuss the work of the Department of State's Bureau of 
International Narcotics and Law Enforcement Affairs (INL) to combat 
transnational organized crime and drug cartels in the Western 
Hemisphere. As this subcommittee knows well, the United States is 
deeply affected by crime and violence perpetuated by transnational 
criminal organizations, including drug cartels, whose smuggling 
networks undermine our border security, inflict harm in our 
communities, and threatens the stability of our allies in the region. 
Today, the trafficking by drug cartels of illicit fentanyl, heroin, and 
other opioids into this country is fueling a National epidemic with 
fatal consequences. The CDC reports between 2000 and 2015, the rate of 
heroin-related overdose deaths in the United States more than 
quadrupled. The impact of transnational crime is felt, too, by American 
businesses and financial institutions who suffer when crime disrupts 
legitimate commercial sectors, depriving workers of a level playing 
field to compete globally. The cartels that operate today are more 
fluid, more nimble, more diverse than ever before and effectively 
combatting them requires a comprehensive, committed, and well-
coordinated approach.
    INL leads the Department's efforts to combat transnational 
organized crime by strengthening the capacity of foreign governments' 
law enforcement and criminal justice systems, combatting narcotics 
production and trafficking, and fighting corruption. Our efforts abroad 
complement those of, and are closely coordinated with, the efforts of 
our U.S. interagency colleagues, including those represented here today 
from the U.S. Coast Guard (USCG), U.S. Customs and Border Protection 
(CBP), and U.S. Immigration and Customs Enforcement (ICE).
    INL does not approach today's challenges at point zero. Decades of 
experience and lessons learned teach us that eradicating drug crops in 
Latin America, in and of itself, is not sufficient; it must be coupled 
with robust alternative development efforts in order to take hold over 
the long term. In addition, the growing threat of synthetic drugs like 
fentanyl--which are not produced from illicit crops--limits the 
effectiveness of eradication on today's drug threat. Interdiction is 
critical to reducing the flow of drugs to our communities, but 
traffickers adapt quickly and shift their routes and methods. Taking 
down the leadership of cartels and other criminal organizations 
disrupts drug flows in the short-term, but also often exacerbates 
violence and leaves room for criminals to vie for power. To address 
these challenges, INL executes two mutually supportive lines of effort-
building cross-border law enforcement cooperation and building 
stronger, more transparent criminal justice systems. To deny safe 
havens to criminal networks, INL assistance strengthens governments' 
ability to enforce their laws and to serve as reliable, trusted 
partners to U.S. law enforcement. INL programming throughout the 
hemisphere, including in Mexico, Colombia, Central America, and the 
Caribbean, is guided by this two-pronged approach, coupling law 
enforcement efforts to deny transnational criminal organizations the 
ability to operate, with building stronger, more accountable 
institutions that reduce corruption and bring criminals to justice. 
Building strong, effective institutions capable of confronting and 
stopping transnational organized crime before it reaches U.S. borders 
is a long-term endeavor that requires a sustained commitment. Cartel 
operations today present a complex set of national security challenges 
that do not lend themselves to simple solutions but the strategic 
approach we have put in place provides a solid foundation for 
strengthening security over time.
                                 mexico
    The flow of illicit narcotics across our shared border with Mexico 
threatens citizen security in both countries. Mexico is the primary 
source country for heroin and methamphetamine consumed in the United 
States and a key transit country for cocaine from South America. Since 
2008, under the Merida Initiative, the $1.9 billion appropriated for 
International Narcotics Control and Law Enforcement (INCLE) funding has 
provided training, equipment, and technical assistance to complement 
Mexico's much larger investment in building the capacity of Mexican 
institutions to counter organized crime, uphold the rule of law, and 
protect our shared border from the movement of illicit drugs, money, 
and goods. This includes more than $130 million in fixed and mobile 
non-intrusive inspection equipment and related detection devices 
provided at Mexico's border crossings, checkpoints, and ports of entry, 
and for which CBP, USCG, and ICE provided training and technical 
assistance. INL provided over 500 canines to Mexican law enforcement 
and military units--many of which CBP helped to train--to ensure they 
have a vital, sustainable capability to detect, interdict, and deter 
the illicit movement of illegal drugs, cash, and other contraband 
headed for the United States. Under Merida, INL works closely with ICE, 
CBP, the USCG, and the U.S. Drug Enforcement Administration (DEA) to 
train and equip Mexican law enforcement officials to identify and 
safely dismantle clandestine drug laboratories used to produce 
methamphetamine, heroin, and synthetic drugs and to better track and 
prevent the shipping of precursor chemicals used to manufacture these 
drugs. From April 2014 to September 2015, Mexico seized over 1,346 
metric tons (MT) of marijuana (a 45 percent increase from this period 
2013 to 2014), two MT of opium gum (a 43 percent increase), 26.5 MT of 
methamphetamine (a 74 percent increase), 10.2 MT of cocaine (a 183 
percent increase) and 653 kg of heroin and closed 272 clandestine 
laboratories (a 90 percent increase). Included in these statistics is 
238.9 MT of illicit drugs Mexico seized using equipment and resources 
provided through the Merida Initiative. Mexican security forces have 
also carried out a series of successful raids of methamphetamine 
laboratories in recent months and made significant arrests in 
confrontations with drug trafficking organizations.
    Our programs also strengthen the intelligence analysis and 
investigative capabilities of Mexican law enforcement agencies to carry 
out complex investigations against organized crime. Merida provides 
equipment and training to Mexico's specialized law enforcement units 
that combat kidnapping, money laundering, human trafficking, and 
narcotics trafficking. Strengthening these units diminishes drug 
trafficking organizations' funding sources. Over $300 million of 
targeted assistance via Merida supported Mexico's reforms to its 
justice system across every facet of the criminal justice system, 
including police, prosecutors, judges, and corrections. When fully 
implemented, Mexico's reformed accusatory justice system will more 
effectively reduce corruption and impunity and bring transnational 
criminals to justice. In coordination with Mexican authorities, Merida 
programming continues to expand to address shared challenges. Our U.S. 
investment has fostered unprecedented collaboration with Mexico's 
national security actors to address irregular migration and stem the 
flow of illegal drugs. In partnership with DHS, we are currently 
contributing $78 million to the development of a communications network 
and $75 million to a national biometric system to enhance the ability 
of Mexican officials to apprehend criminals and share critical 
information with U.S. law enforcement before a threat reaches the 
United States. We also partner with ICE and CBP to train and mentor 
Mexican migration and customs officials. Under Merida, the United 
States is an essential partner in Mexico's reform efforts to address 
criminal organizations and insecurity that affect Mexico and the United 
States.
                            central america
    In Central America, gangs perpetuate violence and foster conditions 
that drive people to leave their homes in search of safety, 
opportunity, and family abroad, often traveling through Mexico in an 
attempt to reach the United States. Under the Central America Regional 
Security Initiative (CARSI) as part of our overall Central America 
Strategy, INL programs assist governments in their fight against 
narcotraffickers, transnational gangs, and human smugglers by assisting 
Central American nations in improving investigative and border security 
capacity. The result is a more stable and prosperous Central America. 
We are helping Central American governments seize record levels of 
narcotics and build justice institutions throughout the region which 
are strong enough to prosecute, convict, and imprison criminals. An 
estimated 90 percent of documented northbound cocaine movements transit 
the Central America and Mexico corridor before reaching the United 
States. To target this threat, INL works with U.S. interagency and 
international partners to train, advise, and equip police task forces, 
vetted units, and maritime law enforcement. In 2016, Central American 
governments seized over 116 metric tons of cocaine. Many of the 
seizures were conducted by police units and security forces vetted or 
supported by INL, working in coordination with CBP, ICE, the DEA, and 
FBI. INL is also increasing its partnership with the USCG to more 
effectively interdict maritime routes often used to transport illicit 
goods. Corruption and limited partner government resources and capacity 
continue to pose challenges in the fight against narcotics trafficking 
and other forms of transnational crime, but we are seeing positive 
developments. In Honduras, an INL-supported police vetting program 
dismissed 1,946 corrupt officers, and is continuing to conduct 
investigations. In Guatemala, the Attorney General is bringing 
corruption charges against former and current high-level government 
officials.
    This is a unique moment in our relationship with these countries. 
Goverments in Central America are increasingly willing to work with the 
United States to arrest and extradite drug traffickers. INL will 
continue to leverage this strong political will to effectively target 
the most at-risk people and places, and to help the governments extend 
their presence and services. Drug trafficking is a major source of 
revenue for organized crime groups in Central America and irregular 
migration is again on the rise. INL is addressing the underlying 
conditions driving irregular migration through crime prevention and 
community policing programs, while strengthening border security, and 
disrupting human smuggling and trafficking networks to minimize the 
impact on the U.S. Government and Americans.
                               caribbean
    Approximately 10 percent of documented cocaine movements from the 
source zone to the United States transit the Caribbean. Through the 
Caribbean Basin Security Initiative (CBSI), INL supports countries with 
the training and equipping of vetted maritime law enforcement 
interdiction units. These efforts contribute to increased drug 
interdictions, particularly in the waters surrounding the Dominican 
Republic, helping to stop the flow of drugs before they reach the 
United States. Cocaine seizures in all CBSI countries increased 152 
percent, from 9.6 metric tons in 2014 to 24.3 metric tons in 2015.
                                colombia
    Colombia is the world's largest producer of cocaine and is the 
origin of approximately 90 percent of the cocaine seized in the United 
States. As cocaine makes the long journey from Colombia to the United 
States, it fuels violence and instability as is passes through the 
transit zones of Central America, Mexico, and the Caribbean. Between 
2013 and 2015, we witnessed a troubling increase in the amount of coca 
cultivated in Colombia--an increase of nearly 100 percent. 
Unfortunately, we expect this updward trend to continue. Working hand-
in-hand with our Colombian partners, INL assistance supports the 
government of Colombia in its robust interdiction efforts against 
trafficking organizations and criminal networks on land and at sea; 
last year alone, the Colombian government reported seizing 421 metric 
tons of cocaine and cocaine base, a 42 percent increase over 2015, and 
the destruction of more than 4,800 drug labs.
    However, we must do more to combat the tremendous growth of coca 
cultivation in Colombia. Together with our Colombian partners, we must 
increase forced eradication and provide for crop substitution and 
robust rural development. Now, at a time the Colombian government is 
implementing a peace accord with the FARC, we have an important 
opportunity to work with the Colombian government on focused 
counternarcotics support. We understand they are reassigning police and 
military units to increase eradication of coca. To restrict the ability 
of transnational criminal organizations, narcotics producers and 
traffickers from continuing to operate in the rural regions of the 
country, we must also continue our long-term efforts to support the 
expansion of Colombia's rule of law. The Colombian government has been 
our steadfast partner in the fight against crime and narcotics since 
before the start of Plan Colombia in 1999. We are confident that we 
will continue to effectively work together to tackle the considerable 
challenges before us.
                               conclusion
    Achieving lasting change is not easy, nor quick, but INL has 
programs and partnerships that, over time and with concerted effort, 
work to keep us safer by strengthening the capacity of our foreign 
partners to combat transnational organized crime before it reaches U.S. 
borders.

    Ms. McSally. Thank you Ambassador Arreaga.
    I now recognize myself for 5 minutes for questions and 
since we started late I am going to start off by yielding to my 
vice chair, Mr. Hurd from Texas, and I will go at the end of 
our colleagues.
    Mr. Hurd. Thank you, Chairwoman. And to our esteemed 
panelists, appreciate you all being here today and for all the 
work that you and the men and women in your organizations do. I 
recognize the difficulty of the task.
    Admiral Ray, my first question is to you. In your opening 
remarks, you talked about how 30 percent of the intelligence is 
action on this high confidence intelligence. What would you 
need to get that number to 100?
    Admiral Ray. Sir, thank you for the question. I don't know 
if we will ever get it to 100, but to raise it to the levels 
that we would like to see it, it is pretty straightforward. You 
need more Coast Guard cutters on the water and the package that 
goes with them, the airborne use of force helicopter, the 
overhead maritime patrol aircraft.
    When you raise that number--right now, our current numbers 
down in that transition region are about 6.0 cutter presence 
and usually we have four airborne use-of-force helicopters. So 
that is why we are able to action the 30 percent to raise it 
up.
    You double that and you would make a pretty good dent. That 
is why our off-shore patrol cutter program which is a 
recapitalization is so important for that.
    Mr. Hurd. Can you give us some context of how it would--you 
know, let us say, you were able to double your resources. How 
long would it take to actually make that operational?
    Admiral Ray. Well, once we put the resources in theater, 
sir, the long pole in the tent is building the ships out. The 
first off-shore patrol cutters we have--with the support of the 
Congress, we have got it on our budget--or excuse me--on 
contract, and she will be commissioned in 2021. That is a fleet 
of 25.
    Now, there are more bills to pay on that, and that is why 
we appreciate your support in advance. Soon as they are 
commissioned we put them down range. That is our highest 
priority mission area or one of our highest.
    Mr. Hurd. We have the folks? We have the people?
    Admiral Ray. Well, they would come with the ships, sir. We 
would be recruiting those and building the forces as the ships 
came on-line.
    Mr. Hurd. Good. Copy. My next question is to Chief Beeson 
and Mr. Allen. My sense is that when it comes to, let us call 
it the ground war, we are having the opposite issue that we 
have on the seas, where the level of intelligence that is 
coming out of the TCOs and the groups operating from in Mexico 
and the rest of Central America can be increased.
    I have always said that when you look at the 19 criminal 
organizations that are operating in Mexico alone, that we are 
not making them a National intelligence priority. Do you 
disagree with that assessment? Would you like to see more NSA 
collection, more CIA collection on the threat in order to drive 
your operations?
    Chief Beeson, I will let you go first.
    Chief Beeson. Thank you, Congressman. We do work with the 
intelligence community to get information. So my experience 
most recently has been as the chief of the Tucson sector and as 
the commander of that task force there in Tucson.
    We have been able to synthesize, if you will, if that is 
the right word, the intelligence that we received from the 
intelligence community and then take action against it.
    We work very closely with Homeland Security Investigations. 
They have personnel assigned to our facility where we handle 
that type of information.
    When there is an interdiction based on that type of 
information that we have been able to do parallel construction 
on and such, we will hand that off to them and they will, of 
course, take it to fruition with regard to the investigation.
    We are always looking for ways to improve on our 
intelligence capabilities and that is something that we 
continue to work at is to get better and better at the 
intelligence.
    Mr. Hurd. Mr. Allen, what would be helpful to improve the 
intelligence collection?
    Mr. Allen. I would, you know, echo Chief Beeson's comments. 
You know, we work on a daily basis with the intelligence 
community. No one is going to turn down any more assistance or 
more information.
    I think our biggest challenge, and I think what we, you 
know, what we are seeing in our investigations that we have 
that I think the ICE could really help us with is what I would 
call network identification and identifying the networks that 
are out there.
    More and more, I think the challenges that we face is the 
ability to kind-of illuminate the network and figure out and 
connect people and events in ways that we could use, you know, 
prosecution.
    I think, you know, there has always been a challenge in 
turning intelligence into evidence because in the end, you 
know, our primary focus is criminal investigations and our goal 
is to present cases for prosecution.
    While it is great to know and there is a not-so-fine-line 
difference between intelligence and evidence, in our world we 
need to be able to turn intelligence into evidence.
    Mr. Hurd. Good copy. Thank you.
    I yield back.
    Ms. McSally. Thanks. The Chair now recognizes the Ranking 
Member Vela for 5 minutes.
    Mr. Vela. Thank you.
    Admiral Ray, just want to point out that your personnel 
have been tremendous over the last 4 years, as I have been on 
this committee. There is nothing like seeing it for yourself, 
and they have consistently worked with our office and reached 
out to show us what they do.
    I would just, you know, let you know that with respect to 
our newer Members, to the extent that you can do the same thing 
in the regions that they represent, that it is a very helpful 
experience. Thanks for everything you do.
    I think my first question is for Chief Beeson and Mr. 
Arreaga, and if you could comment, you referred to the 
eradication efforts in Colombia.
    If you could maybe go first Chief Beeson, just generally 
summarize where we are with respect to eradication efforts in 
Colombia and the other two South American countries where we 
see cocaine production? Then maybe briefly comment on that as 
it pertains to poppy production in Mexico.
    Chief Beeson. So the Border Patrol, Customs and Border 
Protection, we are really working on the capability. So what we 
are doing is working to interdict the narcotics, the 
contraband, things like that, that are being smuggled across 
the border.
    We are not heavily involved in eradication and so----
    Mr. Vela. So maybe this is a better question----
    Chief Beeson [continuing]. I am going to punt to the State 
Department.
    Mr. Vela. Yes, I was going to suggest that.
    Mr. Arreaga. Yes. On the issue of coca plantings in 
Colombia, indeed there has been a doubling of the area 
cultivated since 2013. This is the result of a number of 
factors. No. 1, there was a WHO report which the Colombian 
courts used to ask for the end of aerial eradication. That is 
one reason.
    Another very important reason is as our aerial eradication 
continues quite successfully, the coca planters took 
countermeasures to cultivate in areas where aerial eradication 
was made difficult, to plant it in areas where aerial 
eradication was not allowed. But for instance, some of the 
indigenous areas, some of the border areas, some of the 
mountain areas.
    Then the third factor is that we believe the FARC actually 
encourage farmers to plant, anticipating that perhaps there was 
going to be a peace process where coca farmers would be 
compensated for eradicating their crops. So those are the main 
reasons as to why there was an increase.
    Nonetheless, the Colombian authorities are very much 
committed to eradicate manually, to eradicate voluntarily. We 
are in very intense conversations with them to figure out how 
we can support those efforts.
    There is also the interdiction part, but that refers mostly 
to the actual action to produce cocaine.
    Mr. Vela. Well, and in the future, I think what I would 
like to do is explore that issue and compare eradication 
efforts in the other countries and, for example, pocket 
production in Mexico.
    But I will go ahead and move to my next question for Mr. 
Allen, but I think this is something perhaps probably deserving 
of a hearing in and of itself.
    But Mr. Allen, my question for you is how would you, with 
respect to our cooperative efforts in Mexico and with law 
enforcement in Mexico and the United States, how would you 
describe the State of that cooperative effort today? What would 
you like to see in the future?
    Mr. Allen. I think the one word answer is ``good,'' and I 
would expand on it by saying ``growing.'' You know, I talked 
earlier about, you know, our goal being criminal investigations 
and criminal prosecutions.
    The largest HSI presence outside the United States is 
actually in Mexico. That is where we have the largest number of 
agents deployed internationally.
    I think if we are going to become more effective and impact 
the TCOs and the cartels in particular, we need to grow that 
presence and the relationships that we have with the Mexican 
Federal police, with Mexican customs, with the Mexican 
military, and ANOME in Mexico that focuses on migration through 
Mexico to the United States.
    So, you know, we have a good relationship, but we need to 
continue to work to grow it.
    Mr. Vela. Real quickly Chief Beeson, on the trends on the 
TCO chart of the influence of Mexican TCOs across the United 
States, I know it looks like the Sinaloa Cartel has quite a 
presence along the East Coast. Can you tell us about that? How 
do they extend that deeply?
    Chief Beeson. I have got to remember the button. It is 
through the use of networks. They are leveraging their 
networks, the transportation infrastructure.
    Ms. McSally. OK.
    The Chair will now recognize other Members of the 
subcommittee for questions they have for the witnesses. In 
accordance with the committee rules and practice, I plan to 
recognize a Member present at the start of the hearing by 
seniority on the subcommittee. Those coming in later will be 
recognized in order of arrival.
    The Chair now recognizes Mr. Rutherford from Florida.
    Mr. Rutherford. Thank you, Madam Chair, and thank you panel 
for being here today. Thank you for all the service that you 
have provided in the past and will in the future to keep our 
country safe.
    I want to shift the focus just a little bit though if I 
could? Admiral Ray, you know, we have talked a lot about the 
drugs and the harm that that brings to our country. But also, 
the United States Coast Guard interdicted several migrants from 
former Eastern Bloc countries in fiscal year 2015 and 2016.
    Could you please discuss how it is not just South and 
Central Americans that these cartels are smuggling into the 
United States, but also people from other countries?
    In addition to that, could you address the potential of 
foreign terrorists utilizing these cartels to utilize the 
maritime domain to gain entry to the United States and do us 
harm?
    Admiral Ray. Thank you, Congressman Rutherford. Thank you 
for your years in law enforcement service, sir.
    Mr. Rutherford. Thank you.
    Admiral Ray. It is an honor to take a question from you. 
The Coast Guard last year, we interdicted over 6,000 primarily 
Cubans at sea and they were in the straits of Florida and 
certainly in the eastern approaches to Florida. A few, a 
handful over on the West Coast, which was a big year. The 
biggest year since 1994.
    Like I say, it is primarily Cubans. With regards to what we 
call special interest aliens, those from countries associated 
with terrorism, small numbers in the maritime approaches right 
now. You know, less than 20 over the course, each year of the 
last couple of years. So not a great threat vector there at 
present.
    However, to address your, kind-of, the real question is, 
are these transnational criminal organizations capable and 
would they? There is no doubt in my mind.
    They are sophisticated smuggling organizations, which start 
in the southern reaches of our hemisphere, and as the chief 
addressed and the graphics addressed, go all the way to New 
York City. They work for profit, and I don't think they check 
passports before they pick people up. So I think they will do 
anything for a profit.
    We have not seen evidence of terrorist connections right 
now, Congressman. But I don't think anybody is--we must 
maintain vigilance on that. So with that.
    With regards to people from other nations that are not 
special interest, sir, we get them. Just last week, we had a 
boat seized off of the Bahamas en route to the United States 
that had a dozen Chinese people on-board.
    Mr. Rutherford. Well.
    Admiral Ray. So the tales of these migrants that come from 
all over the world trying to get to America, there are plenty 
of them.
    Mr. Rutherford. See, and I think the potential, Admiral, 
highlights the fact that Mr. Hurd brought up earlier about the 
gap that is created between our abilities now and the 
recapitalization of the fleet and your capabilities down the 
road. We certainly have a gap there.
    That is one reason I want to salute, Madam Chairman, the 
United States Navy who made the decision just yesterday to 
locate the MQ4C Triton Program in Jacksonville at the Mayport 
Naval Station, which will give us that unmanned aerial vehicle 
capability that I hope will certainly be used to fill some of 
that gap that was created when the Navy did away with their 
frigate program which, you know, certainly increased the gap.
    So, I bring that up to also ask, kind-of following up on 
Mr. Hurd's question, I know that the President has made it 
clear that one of his top priorities will be rebuilding the 
Navy to 350-plus ships but I believe this effort also should 
include the U.S. Coast Guard. That is why I think you are here 
today.
    As Secretary Kelly told us during the full committee 
hearing, many of your ships are very, very old. In fact the 
Valiant in Jacksonville, I think, is 50 years old. But one of 
those ships--can you give us your--I know you talked about this 
a little earlier but, how long will it be before we get those 
25? Is that wasn't the 2019 you were talking about, correct?
    Admiral Ray. Yes, sir. Well, thanks for the question. The 
off-shore patrol cutter, we have got them under contract now, 
and it is a multi-year contract. The first one is supposed to 
be commissioned in 2021.
    So we are maintaining our medium-endurance cutters. As you 
said, some of them, in fact, almost all of them are older than 
the parents of the young men and women that are serving on 
them. That is just kind-of a data point.
    So we have got other medium-endurance cutters that are 
averaging in the 35-year length. We will be able to stretch 
those out for another 15 years until we get on-board. That is 
why our off-shore patrol cutter is so important to get back in 
service, or to get in service.
    Mr. Rutherford. Thank you. I certainly hope that the Triton 
program will be of great assistance to you as well.
    Thank you Madam Chair, and I yield back.
    Ms. McSally. This Chair now recognizes Mr. Correa from 
California for 5 minutes.
    Mr. Correa. Thank you, Madam Chair. First of all, 
gentleman, I appreciate your being here today. I represent 
Southern California. I am a father of four children. So to me, 
drugs and keeping that poison away from our children is top 
priority. I have been blessed. My children have avoided those 
scourges, but a lot of my neighbors have not.
    You know, drugs are something we can all agree on stopping 
from getting to our communities. Yet as I look at our Mexican 
border, when I was State senator I chaired the California 
Mexico Select Committee. You begin to realize the tremendous, 
huge trading partnership that we have with Mexico, our biggest 
or second-biggest trading partner that we have in the world.
    That border is the most traveled cross-border in the world. 
I have always advocated for smart borders, meaning you can 
check folks, you can check merchandise before it gets to the 
border so we can make sure things flow smoothly, effectively, 
and we stop the negativity.
    Vice Admiral Ray, you said something that really bothered 
me, and that is that you had intelligence on 500 events--500 
events--and you did not have the assets to stop them from 
possibly reaching our shores. So I am going to repeat the same 
question that has been asked of you is, what do you need and 
where?
    As I look at that chart on the side, I look at those red 
lines. Given that Colombia is now at peace with FARC, I think 
those red lines are going to get thicker in the very near 
future. So where do you need those assets? Do you need them in 
the United States or do you need them somewhere in Latin 
America to stop all of that cocaine production from coming in 
to our shores?
    Admiral Ray. Thank you, sir. Those assets would be based in 
the United States, hopefully in one of your districts, and they 
would sail from there and go anywhere we need them. But 
primarily right now where we need them and where they could be 
most effective is in that area between South America and 
Central America.
    You know, that is a huge area. It is as big as the 
continental United States. So covering that is difficult. 
However, with the intelligence we have now that is what let us 
know who is out there.
    We know on a given morning, and we do this on a 24-hour 
cycle and we create these packages, and we know who is there, 
who we can get after. Of those, we literally had to let 580 of 
them--we couldn't take a pass at them because we didn't have 
sufficient assets.
    So as I have mentioned to Congressman Rutherford earlier, 
or Congressman Hurd about doubling down on the amount of assets 
we have in that transit zone, that is how you get after them. 
That is how you affect them.
    Mr. Correa. So that would be your priority, sir, in terms 
of investment.
    Mr. Allen, you also mentioned that you have a tremendous 
working relationship or a better working relationship with the 
Mexican government.
    A number of years ago I had the opportunity to go down to 
Mexico City and look at one of their central intelligence 
monitoring stations where they were looking at almost every 
vehicle coming across their Southern Border. That information 
would be digitalized, sent to Mexico City, and I presume that 
was sent eventually to Langley, Virginia.
    My question is what else do you need? What is it that we 
need to do to increase, enhance our partnership with Mexico to 
make sure that these drugs don't reach our shores and our 
borders?
    Mr. Allen. Well, as I said, and I think, you know, building 
the capacity of Mexican agencies and, you know, increasing the 
rule of law in Mexico is a key part of that. Our role is a 
liaison role and increasing our footprint in Mexico and making 
sure that we can have good, productive relationships with our 
Mexican----
    Mr. Correa. So what do you need from us to do that?
    Mr. Allen. More people. You know, one of the things we 
haven't talked about today is the, you know, the President's 
Executive Orders which calls for 10,000 more ICE employees. 
Some of those, I think, if the Secretary gets his way, will be 
special agents. Our plan would be to deploy some of those 
outside the United States.
    So coming up----
    Mr. Correa. Outside the United States and within Mexico and 
other countries as well?
    Mr. Allen. Absolutely, yes, sir.
    Mr. Correa. Final question to Chief Beeson. In terms of 
folks, people of interest, do you have a number of how many of 
those have been apprehended crossing the Southern Border versus 
the Northern Border?
    Chief Beeson. So when we talk about--we would use the term 
``special interest alien.'' We are looking at folks and their 
travel patterns, where they have been, that would lead us to 
have some concern about those individuals.
    So that is information that we do keep. I do not have it 
with me here today, so I would have to take that back for the 
record.
    Mr. Correa. Thank you.
    Madam Chair.
    Ms. McSally. OK. The Chair now recognizes myself for 
questions.
    Chief Beeson. Director Allen, I mentioned in my opening 
statement a sophisticated drive-through operation that was 
recently broken up in Cochise County, Arizona.
    According to press accounts anyway, looks like they 
successfully smuggled large quantities of drugs through Arizona 
for years, not days or weeks or months, but for years before 
they were actually caught.
    These drive-through operations are something that I hear 
from my constituents and border residents often about. We have 
seen encrypted communication, you know, special code words, 
other tactics to avoid detection.
    The last breach that I personally saw on the border was 
where they used pretty sophisticated blowtorch and, you know, 
welding equipment to be able to cut through, basically, a gate 
in the barrier with hinges.
    So they were able to prep that in advance through their 
spotters and scouts. They knew when they weren't going to be 
detected or where they weren't going to be detected.
    If you actually went by it, you wouldn't be able to see the 
breach. But then at the time and place of their choosing, they 
open it up, put the ramp, drive through, shut it, and go 
through essentially undetected.
    So just giving that case study of them being able to 
conduct these operations for years in Cochise County, do you 
think this is the level of sophistication is like the new, you 
know par, this is the new normal for cartel operations?
    Are there additional tools or authorities that we need to 
give you in order to detect and interdict these types of 
operations so they don't go on for years before they are 
detected?
    I congratulate them being rolled up and a number are being 
prosecuted right now, but, you know, what could we learn from 
it and do you need any additional tools or authorities?
    Chief.
    Chief Beeson. So we do have this phenomenon, if you will, 
of the drug trafficking organizations and their smuggling. They 
certainly are very sophisticated in their approaches.
    They have the benefit of time. So they have got plenty of 
time to wait and seek the right opportunity to engage in their 
illegal activity.
    They use scouting networks, as you have mentioned. They 
utilize encrypted communications. They are utilizing, of 
course, these vehicles, sometimes very rudimentary vehicles. It 
looks like a car carrier, and then they just use it to ramp 
over the fence.
    For us to combat that, we are continuing to work on 
situational awareness, making sure that we are improving our 
detection capabilities along the Southwest Border.
    Very critical for us to continue to engage with our law 
enforcement partners, certainly with Homeland Security 
Investigations to make sure that we are all sharing the same 
information, know about who the networks are, who is operating 
in the area.
    Then, of course, getting information from the intelligence 
community that is going to provide us with the pre-event intel 
so that we can take action against these folks as they are----
    Ms. McSally. Are there any, and I know we have been out 
there visiting. Are there any additional tools specifically 
related to or authorities related to intercepting or cracking 
the encrypted comms? Or you know, we introduced a bill last 
Congress related to the scouts, that oftentimes, when you roll 
them up, you can't prosecute them for anything unless you can 
tie them to a specific drug load.
    So we made that a Federal crime. It didn't make it into 
law, but we are going to keep pushing that issue. But are there 
any additional tools or authorities you would need in order to 
get out in front of their decision loop and their techniques?
    Chief Beeson. So we have had some success against scouts. 
As you mentioned, we have been able to prosecute some of them. 
It does require some effort, right? I mean, good solid police 
work to sit there and investigate and do that. We are certainly 
happy to do that and do that very well, I think.
    We have been having what I think is a really good 
relationship with the U.S. Attorney's Office in terms of being 
able to present these cases and for them to take a prosecution 
on individuals that really don't have any narcotics with them 
but they are still able to prove conspiracy and take those 
cases.
    We are going to continue to plug away on technology, 
certainly on the tactical infrastructure, the barriers, and we 
need to keep applying those things to really improve the 
situational awareness that we need along the border.
    Ms. McSally. Mr. Allen.
    Mr. Allen. You know, the one thing I would add to Chief 
Beeson's picture there is the foreign piece. There was a very 
good example last year, just south of your district, or in your 
district but on the Mexican side where by having a good 
relationship with our Mexican counterparts we were able to make 
sure that the border was not actually a barrier.
    When we had information about a failed drive-through or a 
drive-through that had been thwarted, we were able to cue 
Mexican law enforcement to go and take law enforcement action 
on the Mexican side.
    I think that is another piece that we need to continue to 
work on to make sure that, you know, when we do develop 
intelligence about a drive-through, you know, if we can't 
action that on the U.S. side of the border we can action it on 
the Mexican side.
    Ms. McSally. Great. Can I follow up on that? In all of your 
testimony, most of your testimonies, you talked about better 
coordination with authorities in Mexico, yet endemic 
corruption, you know, through their government and law 
enforcement.
    How do you balance those two and cooperating but not 
tipping them off related to the elements of corruption that 
would be involved in your partner agencies?
    Mr. Allen. I will start on that. Some of it, you know, 
first of all, you have to go in with your eyes wide open. You 
have to, you know, acknowledge right up front that corruption 
is a challenge. But some of it comes down to who you talk to 
and where and at what level of government.
    Our best relationships are often in Mexico City away from 
the border. As an example, to kind-of demonstrate how important 
that can be, last year HSI and CBP and State and local law 
enforcement authorities in Arizona did a somewhat unprecedented 
operation in which we identified targets in northern Sonora 
that we had--or indictments on, in the United States and we 
wanted to go get.
    We enlisted the support of the Mexican Federal Police and 
got them to send more than a hundred law enforcement officers 
and stage on the U.S. side of the boarder, in Arizona and 
conduct, frankly, an air mobile assault into Mexico from the 
United States, fully armed, coordinated amongst all the U.S. 
agencies from the State Department through all law enforcement 
very successfully.
    It was not compromised because we worked with, you know, 
U.S.-trained, U.S.-vetted law enforcement units that made that 
possible. I think that is the way we want to continue to move.
    Ms. McSally. Great, thanks. I will have another round of 
questions, but my time has expired.
    So the Chair now recognizes Ms. Barragan from California 
for 5 minutes.
    Ms. Barragan. Thank you.
    Gentlemen, thank you for your service, and thank you for 
being here today.
    I want to start with you, Vice Admiral Ray. There has been 
a lot of talk of building a wall on the Southern Border and 
investing $25 billion or so in it. If that is done, do you 
think that is going to increase and shift more focus onto the 
seas and our maritime ports of entry?
    Admiral Ray. I think there is a highly likelihood of that, 
ma'am. You know, we found that when determined, illegal 
traffickers meet a hard barrier on the land then there is a 
percentage of them that will go to sea and try their hand 
there.
    We see it on both sides of the country when it comes to 
illegal smuggling and when it comes to human trafficking. So I 
think there is a reasonable potential for that.
    Ms. Barragan. You also testified about if you had resources 
it may be a good place to put it in the seas between, I guess, 
the United States and Central and South America.
    What about, do you foresee any increased threats coming 
into the west side of the U.S. coast? Or is there a greater 
need down in that area----
    Chief Beeson. Well----
    Ms. Barragan [continuing]. That you mentioned?
    Chief Beeson. We would do both, ma'am, in answer to your 
question. We have an on-going operation just south of Los 
Angeles between, well, from San Diego north, called Baja 
Tempestad, where we work with our partner agencies.
    We have had a big effect and quite a few seizures of 
marijuana trafficking going along there and illegal smuggling. 
We have been doing that on-going for the last 4 years.
    So that is an on-going right at our border, operation. When 
I talk about the down-range, further down closer to Central 
America, that is where we have the effect because that cocaine 
is bound for Central America where it causes all the unrest and 
criminal activity.
    It is just fuel for the fire there in those violent 
countries. That is what drives the young people out of there. 
That is why they show up on our border. So it is both of those.
    Ms. Barragan. Great. The last question I have is for 
everybody. We have been hearing a lot from--all the panelists 
talk about the importance of the U.S.-Mexico relationship, the 
importance of the role they play in helping us address and deal 
with the drug cartels and the criminal organizations.
    Yet we have been hearing from this administration lots of 
talk about building a wall, about having Mexico pay for the 
wall, even about talks of a possible tariff of 20 percent on 
Mexico. One of my concerns is all this talk is going to weaken 
the cooperation between the United States and Mexico, having us 
become more of a--less of a partner, I should say, between the 
two.
    Can you comment on what would be the impact if we had that? 
If we had the United States and Mexico weaken the cooperation, 
what that will do on the impact to the drug cartels and us 
having the ability to fight that threat?
    Chief Beeson. So I will just say that, you know, I have 
been doing this job for a long time now, you know, over 30 
years. It is certainly we have enjoyed throughout the course of 
that time what I think is a good relationship with the 
government of Mexico. That relationship has gotten better and 
better and better throughout the years.
    We have a number of operations, as the ones that Director 
Allen mentioned, we engage with local authorities on a regular 
basis to address border violence, to address cross-border 
communication so that we both understand what the threat is 
that is operating in that area because we both want a secure 
border.
    We look forward to continued relationship with the 
government of Mexico. It is important for us. What we are doing 
from a law enforcement perspective is paying dividends on the 
border security front.
    Ms. Barragan. Chief, so just so I want to make sure you 
answer my question, and that is, what will the impact be if 
there is less cooperation with the United States and Mexico? 
Because I understand what you are saying. I completely agree 
with you.
    My concern is that a lot of the rhetoric we are hearing 
from this administration only leads to less cooperation. I want 
to know what the harm will be on less cooperation to this 
fight, this very important fight, against the drug cartels and 
the criminal organization. Can you address what that impact 
might be?
    Mr. Allen. You know, I think the short answer is that it 
would hurt it. But I think, as Chief Beeson has mentioned, and 
I think our experience would illustrate as well, you know, we 
have weathered similar storms before in our relationships. 
Fortunately we deal very well, law enforcement to law 
enforcement, with our Mexican counterparts.
    So we have not seen any degradation in our relationship. I 
think we will be able to soldier on and make our way through 
it.
    Mr. Arreaga. I agree with my fellow panelists. We have not 
detected any deterioration, but naturally we work on the basis 
that partner governments want to work with us. Without it, we 
couldn't accomplish much.
    Ms. McSally. OK. The gentlewoman's time has expired.
    The Chair now recognizes Mrs. Demings from Florida.
    Mrs. Demings. Thank you very much, Chairwoman.
    To all of you, thank you so much for your service, but not 
just to you, but to the men and women who also serve with you.
    Mr. Allen, we have heard quite a bit of talk, and I do 
believe we have a very strong relationship with Mexico. I am 
thankful for that. But what about our working relationship with 
your counterparts in Central America? Could you talk a little 
bit about that?
    Mr. Allen. Absolutely. While we definitely have focused a 
lot on our relationship with Mexico, you know, HSI has attache 
offices throughout Central America and into South America. A 
lot of the same relationships that we enjoy with our Mexican 
law enforcement counterparts we also share with our Central 
American and South American counterparts.
    In my written testimony one of the things we talk about are 
our transnational criminal investigative units where we work 
cooperatively with U.S.-trained investigators from host 
countries that allow us to project our priorities and our 
authorities into the areas that provide that land bridge to the 
United States, whether it is drug trafficking or illegal 
migration.
    And we see those relationships as just as important as our 
relationships with our Mexican counterparts because, in the 
end, the further we can push out that border and identify bad 
things or bad people that are coming to the United States, the 
better off that we are by pushing out that border.
    Mrs. Demings. What do you think can be done to better 
improve or enhance that relationship? You talked about the 
number of agents that you have on the ground in Mexico. What 
could be done to enhance that relationship in Central and South 
America?
    Mr. Allen. I would say continuing to help them build their 
capacity, you know, working with the Department of State, in 
particular INL, who often funds a lot of our relationships and 
that the U.S. training that we provide to our foreign 
counterparts is often funded through INL.
    So increasing that, the ability to help them improve their 
capabilities which, in turn, helps us protect our border is a 
key part of that relationship.
    Mrs. Demings. OK.
    Chief Beeson, in previous years, many agents have 
complained or requested communication systems that would allow 
them to better communicate and share information with their law 
enforcement partners. Is this still a challenge for you? If so, 
what can be done to improve communications, intercommunications 
between those partners?
    Chief Beeson. We work, I think, very hard at improving 
relationships with our law enforcement partners. I mean, this 
is really, for us, we look at it as a whole-of-Government 
approach. We want to make sure that law enforcement agencies 
that are able to work with us on these border security issues, 
that we have got good communication.
    We will engage in task force operations with them. 
Oftentimes, those task forces are led by Homeland Security 
Investigations. We will--of course we do have car-to-car 
communications, you know, assuming that our radios are 
compatible. There are still from time to time, some challenges 
with compatibility on radios.
    Oftentimes we are able to overcome that now, especially 
nowadays with the advent of cell phones and things like that. 
Always working on ways to improve communication.
    We enjoy what I think is a very good relationship with the 
law enforcement community and something that we look forward to 
continuing in the years to come.
    Mrs. Demings. Have you had any challenges with the security 
of the communications?
    Chief Beeson. So our communications are encrypted and so we 
are continually assessing the viability of the encryption and 
looking forward to, you know, we want to make sure that they 
remain that way.
    We do lose radios from time to time or they get stolen. 
Generally when that happens we are able to inhibit the radios 
and as long as we are aware that that has happened, but that is 
something that we are always looking at.
    Mrs. Demings. OK. Thank you.
    I yield back.
    Ms. McSally. The gentlelady yields back.
    The Chair now recognizes Mr. Katko from New York for 5 
minutes.
    Mr. Katko. I appreciate the Chair for allowing me to come 
in and ask a few questions here.
    I want to thank the panel for being here. I started out my 
career as a Federal organized crime prosecutor in El Paso, 
Texas. I saw first-hand on the border the profound problems 
that we confront. I finished my 20-year career on the Northern 
Border.
    My concern, at times, is that, well, there is not enough 
attention being paid to the Northern Border. There have been 
some recent articles to that effect, that everyone is focusing 
on the Southern Border and no one is really paying attention to 
the Northern Border, at least from our standpoint. I am not 
saying law enforcement--from our standpoint.
    I can tell you, the Northern Border is largely a sieve. We 
have an Indian reservation in the northern district of New York 
that straddles both sides of the border and is involved in 
hundreds of millions of dollars a year, at a minimum, in 
cocaine and marijuana trafficking and smuggling of aliens.
    Many people view the Northern Border as far more vulnerable 
to a terrorist infiltration than the Southern Border.
    With that being said, I would just ask that at some point 
that the Chairman maybe schedule a hearing so we can dedicate 
an entire hearing to the Northern Border issues, because they 
are profoundly different than the Southern Border. But they do 
merit more attention.
    I am a Chair of the Homeland Security Subcommittee for 
Transportation Security. As we saw this week, there are still 
gaping holes in the drug trafficking components at our 
airports.
    We saw a case in Puerto Rico that has spanned now more than 
a decade, and they smuggled more than 20 tons of cocaine onto 
aircraft from Colombia through Puerto Rico into the United 
States. That, to me, is a profound problem, and that is another 
border-type issue.
    So for Director Allen, as you are well aware of this 
instance, I would like to hear from HSI as to whether you have 
enough resources to fund these types of investigations at our 
Nation's airports. That is not the first time we have had this 
at the airports with HSI, and I am concerned about that.
    Second, how can TSA or the FBI or other State and local 
partners better support your efforts? I don't want FBI to be at 
odds with you, running separate investigations at airports. I 
want you to coordinate better with Homeland Security. So if you 
could answer that, I would appreciate it.
    Mr. Allen. Sure. Well, I will probably not talk about the 
Puerto Rico investigation since it is a pending prosecution. I 
am happy to talk about what we often refer to as internal 
conspiracies, whether they be at airports or seaports and 
looking at that insider threat.
    You are correct. They present a tremendous challenge for 
law enforcement and everything from a counterterrorism point of 
view, the ability to get a firearm or other explosive device 
onto an aircraft by using an insider threat certainly falls 
well within the scope of our counterterrorism responsibilities 
at the Department.
    But from a drug trafficking point of view as well, we are 
well aware that drug trafficking organizations want to use that 
inter-State ability to move commercially to get their products 
from point A to point B.
    In terms to your question about resources and our ability 
to work on that challenge, the vehicle that we use for that is 
the Border Enforcement Security Task Forces. We have been 
expanding the BESTs, as we refer to them. We have now----
    Mr. Katko. Yes, I helped stand one up on Massena, New York 
before I left.
    Mr. Allen. Exactly, yes. So we now have four airport-
focused BESTs, one of them in Puerto Rico, that are chartered 
to focus on that internal conspiracy threat.
    Our goal would be to expand them and increase the number of 
BESTs we have around the United States that can focus both on 
the physical land border, but also on other chokepoints, in 
this case in airports and seaports.
    Mr. Katko. What about, I know FBI, for example, the FBI has 
headed up some major operations Nation-wide. The example was 
the Dallas-Fort Worth case where--that was a multi-airport case 
there. How would you, kind-of, make FBI's efforts jibe with 
yours better, if you could?
    Mr. Allen. I think, for us, that all comes down to, you 
know, coordination and deconfliction. I think one of the things 
that I have seen change in my career, certainly accelerated 
after 9/11 and a huge transformation in Federal law 
enforcement, is the willingness and openness of agencies to 
coordinate and deconflict investigations.
    I think as long as all of us are doing that and we know 
that someone is working an issue and that if resources are 
needed from the Bureau or the Bureau needs resources from any 
of the DHS components, that we are standing by to do that. As 
long as we are talking and coordinating and deconflicting our 
investigations, we are on the right track.
    Mr. Katko. Thank you. Very quickly, I have 20 seconds so I 
can't help it, but I am going to have to ask a Northern Border 
question of the Vice Admiral, and that is the Shiprider Program 
which you use up on the Northern Border has been, I think, a 
very good success.
    You marry the Canadian law enforcement with American law 
enforcement. I think it is a good way to patrol the Great Lakes 
and the St. Lawrence as best you can. How is that program 
doing? Is there any discussion about possibly expanding it?
    Admiral Ray. As you stated, sir, that program is doing 
great. They have done about 900 boardings since that has been 
stood up, several arrests. It closes seams on the border with 
the Royal Canadian Mounted Police who are real proud of it: St. 
Lawrence, Great Lakes, and also out in Puget Sound.
    What it needs is more people and that is really what it--
you know, operations and maintenance money. There is not a--it 
is boarding team members, carrying a gun, being trained, and 
operating with the Canadians, and that is what we are short of.
    Mr. Katko. I appreciate that, and hopefully we can have 
another hearing on this if the Chairman is so inclined.
    I just wanted to note two things for the record here. These 
are reports on FBI, two articles, one recently, titled ``FBI 
Reports Show Terror Suspects Coming from Canada While Trump 
Stares at Mexico.''
    The other one is from The Daily Caller, another article 
about illegal refugees are now streaming across the Quebec/New 
York border. That was recently done this week. I ask both of 
them be entered into the record.
    Ms. McSally. Without objection.
    [The information referred to follows:]
          Article Submitted For the Record by Hon. John Katko
FBI Reports Show Terror Suspects Coming From Canada While Trump Stares 
                               at Mexico
Jana Winter 02.07.17 1:13 AM ET
http://www.thedailybeast.com/fbi-reports-show-terror-suspects-coming-
        from-canada-while-trump-stares-at-mexico
Documents reviewed by The Daily Beast show way more suspected 
        terrorists encountered at the northern border than at the 
        southern one. Why is Trump so eager to build a wall down there?
    Donald Trump keeps talking about the threat from the U.S.-Mexico 
border. But he may be looking in the wrong direction. FBI reports 
reviewed by The Daily Beast reveal that far more suspected terrorists 
try to enter the country from the northern border with Canada than from 
the south.
    Seven FBI Terrorist Screening Center ``monthly domestic encounter 
reports'' dating from April 2014 to August 2016 detail the number, 
type, and location of encounters with known or suspected terrorists 
across the United States. The encounters are based on information in 
various watchlist databases. In all seven reports, the numbers of 
encounters at land border crossings were higher in northern states than 
southern.
    ``We are looking the wrong direction,'' said a senior DHS official 
familiar with the data. ``Not to say that Mexico isn't a problem, but 
the real bad guys aren't coming from there--at least not yet.''
    On Monday, press secretary Sean Spicer told reporters he would not 
disclose evidence behind the President's claims that jihadis are 
``pouring'' into the country. ``I'm not going to get into specific 
information that the President has,'' he said.
    The FBI reports obtained by The Daily Beast provide data on known 
or suspected terrorists attempting to enter the country, or who are 
already in the United States.
    These reports show hundreds of watchlisted passengers encountered 
on domestic flights--meaning they are already in the country--and a 
smaller percentage crossing the border over land.
    Those encounters are reported back to the FBI's Terrorist Screening 
Center and used to compile the monthly domestic encounter overview 
reports, which are classified ``Law Enforcement Sensitive.''
    Newly installed Department of Homeland Security Secretary John 
Kelly traveled to Texas last week to survey the border in the Rio 
Grande Valley with local law enforcement. He is scheduled to testify 
Tuesday morning at a House Homeland Security Committee hearing on 
threats to the southern border.
    But the FBI data shows concerns about terrorists crossing into the 
U.S. from Canada may be a more immediate concern, or is at least worthy 
of considerable attention, according to border and Congressional 
officials.
    ``We often hear about security concerns on the southern border, but 
bad actors intent on entering our country will always seek the path of 
least resistance, so we must have the necessary tools and resources to 
secure both the northern and southern borders,'' Sen. Gary Peters (D-
MI) said in a statement to The Daily Beast.
    In August 2016, for example, more than twice as many watchlisted 
individuals were encountered at land border crossings in northern U.S. 
border states than in all states on the Mexican border combined.
    The reports do not say whether the land border crossings were 
attempts or successful entries into the United States. (Being 
watchlisted does not necessarily prevent you from entering the 
country.) The people documented in these encounters can include people 
holding valid visas, applying for asylum, or caught between ports of 
entry by U.S. law enforcement.
    From Aug. 1 to Aug. 31, 2016, the Terrorist Screening Center 
recorded 538 encounters with known or suspected terrorists in the U.S. 
or at its borders. That includes incidents on domestic and incoming 
international flights, at land and maritime border crossings, during 
law-enforcement investigations, at Customs and Border Protection inland 
checkpoints, and in the process of administrative work including 
vetting for visa and refugee applicants.
    Of those, only 68 happened at land borders. Michigan alone had 26 
such encounters; New York had 17. Arizona and Texas had none at all--
even Vermont and Washington state had more--and California had 19.
    FBI Terrorist Screening Center monthly reports from 2014 and 2015 
tell a similar tale. New York, Michigan, and Washington have the most 
encounters with suspected terrorists at land border crossings. North 
Dakota and Vermont encounter one or two per month on average. The 
numbers at the southern border were comparatively small. In April 2014, 
for example, there were 12 border encounters in California and Texas 
combined and 17 in Washington, New York, Michigan, and Vermont. In the 
same month the following year, southern states reported two encounters; 
northern states: 18.
    In some months, some southern states had higher encounter numbers 
overall, but fewer at land border crossings.
    In April 2014, for example, there 141 encounters overall in 
California, but just five at the land borders. (New York, by contrast, 
had 154 overall and seven at the land border.)
    ``So often there's just talk about the southern border, but we 
can't ignore the northern border,'' Sen. Heidi Heitkamp, a North Dakota 
Democrat, said in a statement to The Daily Beast. ``When I brought 
then-Deputy Secretary of Homeland Security Mayorkas to Pembina, North 
Dakota, we heard about issues ranging from recruiting and retaining 
quality border patrol workers to inefficient or out-of-date 
technologies.''
    (The Department of Homeland Security referred requests for comment 
to Customs and Border Protection headquarters, which did not respond to 
The Daily Beast.)
    Canada Embassy spokesperson Christine Constantin told The Daily 
Beast in a statement ``it is relevant to note that no terrorists have 
ever been successful in attacking the United States coming through 
America's northern border.'' Constantin also highlighted ``robust 
security measures'' on the border including integrated U.S.-Canada law 
enforcement teams.
    A new threat assessment report by the Texas Department of Public 
Safety, released just days before Trump signed his refugee and 
immigration executive order, describes terrorists' potential use of 
existing Latin American human-smuggling routes that ``have long 
transported Syrians, Iraqis, and other immigrants from countries where 
terrorist groups operate to our land border with Mexico, where they 
often seek asylum too,'' sometimes fraudulently. It does not say this 
network is currently being utilized in this fashion. (In fact, this 
report and others say that the more pressing issue may be terrorist 
sympathizers crossing the U.S. border into Mexico--a dozen of whom have 
been arrested over the last four years--to evade the U.S. no-fly list 
as they make their way to joining ISIS overseas.)
    This DPS report is being widely circulated among White House and 
Congressional policy makers close to the administration, Congressional, 
White House, and border security officials said. And it is being relied 
heavily upon for immigration-related policy decisions. DHS Secretary 
Kelly met privately with the Texas DPS last week to discuss aspects of 
the report.
    But Aaron Heitke--U.S. Border Patrol Grand Forks sector chief 
patrol agent, who oversees all Customs and Border Protection activities 
in North Dakota, Minnesota, Wisconsin, Kansas, Missouri, Iowa, South 
Dakota, and Nebraska--thinks all the attention to the southern border 
may be a bit myopic.
    After all, the northern border is the longest land border in the 
world, stretching 5,525 miles and 120 border crossings. The U.S. shares 
1,933 miles with Mexico, according to information on CBP's website.
    In an interview with The Daily Beast, Heitke said the numbers of 
watchlist encounters have been consistently higher in northern states, 
though he said he's seen more steady numbers than the sharp uptick 
suggested by the nationwide FBI reporting.
    ``It's been reasonably steady,'' he said.
    He and other border sources noted that the northern U.S. hosts more 
large immigrant populations that often come under scrutiny by federal 
authorities. For example, Minneapolis has a large Somali community; it 
can sometimes be more convenient for a passenger traveling from Somalia 
to Michigan to travel to Canada first, and then cross into the United 
States.
    He also stressed that the northern border doesn't get as much 
overall traffic as the southern one, and border patrol efforts in the 
northern are aided by portions of near impossible to traverse terrain 
and a ``fantastic'' relationship with Canada.
    In contrast, a senior border official based in Texas said the 
increasingly hostile relationship with Mexico will only make securing 
that border more difficult. The official would not speak on the record, 
citing concerns over incurring the wrath of President Trump and the new 
administration from whom CBP is requesting vast increases in resources. 
The official was unaware of data contained in the FBI terrorist 
encounter reports. When asked if surprised that the number of 
encounters was higher on the northern border, the official said ``yes, 
a bit,'' before adding that this did not mean the danger of terrorists 
entering the U.S. from the south was any less.
    This official and Heitke both suggested that the attention from the 
President and in the press on the Mexican border could inspire an 
increase in future attempts to enter the country undetected through 
Canada.
    ``While all eyes are on Mexico the bad actors will take another 
look at Canada,'' said the DHS official. ``Unless you're incredibly 
stupid you're not going to try to sneak into the country where everyone 
is looking. You'd put on a coat and head to Canada.''
    Editor's Note: This story was updated with a response from the 
government of Canada.
                                 ______
                                 
          Article Submitted For the Record by Hon. John Katko
      Illegal Refugees Now Streaming Across Quebec-New York Border
Posted by David Krayden Contributor 12:23 PM 02/14/2017
http://dailycaller.com/2017/02/14/illegal-refugees-now-streaming-
        across-quebec-new-york-border/
    Despite all the media reports of refugees illegally entering Canada 
from the U.S. at remote Manitoba crossings, more are actually getting 
through along the Quebec-New York border--and it can be just as cold as 
the temperatures reported along the prairies that have sometimes 
induced frostbite.
    The Canadian Border Security Agency says Quebec is now the 
flashpoint for ``asylum seekers'' or double refugees who first entered 
the U.S. as refugees and are now fleeing there and trying to sneak into 
Canada over fears that President Donald Trump will have them deported.
    The numbers speak for themselves, with 42 asylum claimants showing 
up at the Quebec border last weekend alone and 452 for January--a 230 
percent increase from the year before.
    RCMP spokesman Cpl Camille Habel told CBC News that he attributes 
the popularity of the Quebec border to its relative closeness to major 
U.S. cities like New York and Washington, D.C. and the fact that 
international airports are nearby.
    ``Bigger cities on each side can mean more people trying to cross 
here.''
    The ``refugees'' are deliberately crossing illegally so they can 
bypass the Safe Third Country Agreement, which is supposed to prevent 
people seeking asylum from choosing more than one ``safe'' destination 
when the flee their country of origin. The U.S. and Canada are both 
considered safe under this international legislation. But, 
paradoxically, the act only applies at legal border crossings; so 
double refugees are crossing illegally in order avoid their official 
refugee status from being questioned.
    Should refugees be stopped from crossing into Canada?
    But the agreement only holds at official border crossings, so 
people crossing illegally into Canada are able to apply for asylum 
here, even if they arrived in the U.S. first.
    Julie Lessard, who specializes in business immigration law, told 
the CBC that the current illegal flow of refugee claimants that is 
spreading across the longest undefended border int the world is fast 
becoming the status quo.
    ``People are just trying to get better lives, so if the ban comes 
back in another form--and because of the insecurity that it all 
created--well definitely, there was an increase in the last couple of 
weeks of the number of people trying to cross the border,'' Lessard 
said.
    ``I don't see it ending at this point in time.''

    Mr. Katko. Thank you.
    Ms. McSally. I look forward to working with you and the 
potential for future discussions on the Northern Border.
    OK. We are going into round two here. Vice Admiral Ray, as 
much as you can in an open setting, can you share some 
perspectives on increased sophistication of cartel activities 
in the maritime domain?
    We have heard about them armoring their engines to avoid 
being shot out, or using infrared technology, night vision 
devices, sub-submersibles, those types of things. Can you share 
some other examples of what you have seen of their evolving 
tactics and sophisticated technology?
    Admiral Ray. Yes, ma'am. I will have to think my way 
through what I can talk about in this setting, but they are, 
without a doubt, as all the panel members have said, they are 
an innovative, adaptive, agile organization. As you said in 
your opening statement, it is sophisticated operations.
    If you can buy it in the open market, they have got the 
funds to buy it. If it is anything that has to do with locating 
illicit goods, communicating via satellite, they are doing it 
and they get that.
    When it comes to their ingenuity on the maritime, it is 
really impressive that they can build in a ditch in the jungle 
in Ecuador a craft capable of sailing about the distances going 
from Florida to Washington State and carrying about 7,000 or 
8,000 pounds of cocaine. I mean, that is pretty impressive.
    So incredibly innovative, incredibly resourceful, and so, 
that is what makes the problem so tough, they are adaptable.
    Ms. McSally. Great, thanks.
    Chief Beeson, we talk a lot about situational awareness and 
operational control. So on the land border, there has been much 
discussion today about pushing the border south and disrupting 
the networks, and that is all an important part of the 
strategy.
    But as any sort of breaches come to the border, whether it 
is going to go over, through or under or around, you know, we 
have got to make sure we have got the situational awareness 
that those breaches are happening and then the ability to have 
operational control to intercept those breaches as close to the 
border as possible. We have had many discussions about this.
    In a previous hearing last Congress, Acting Chief Vitiello 
said that the situational awareness on the 2,000-mile Southern 
Border, if something breaches, if it moves, being able to see 
it real time is a little over 50 percent, 56 percent.
    Do you agree with that number? Has any of that changed? 
What do we need to do in order to increase situational 
awareness so that if something moves, you see it?
    Chief Beeson. So Chief Vitiello, I think, was referring to 
deployment density, and that encompasses situational awareness 
among other things, how you are, you know, putting down your 
resources and things like that.
    From my perspective, that has gotten better. We have 
implemented integrated fixed towers in Nogales. As you know, we 
have got a system coming on-line in your district any day now, 
should becoming operational in Douglas.
    We have another system that will be going operational in 
Sonoyta in the very near future. Then let's not forget the 
value of men and women in the Border Patrol, and certainly 
within Customs and Border Protection of the field office as 
well, being on the line and being able to observe and report 
what they are seeing.
    You know, the barriers that we have deployed and that we 
will continue to deploy, the technology that we have deployed. 
All of that has to have a response element built into it, and 
that is the men and women.
    So we need to make sure that we are continuing to deploy 
personnel, and certainly our objective is to get them down as 
close to the border as possible.
    Obviously, we want to push it south. We would like to get 
the traffic before it ever gets to us. Absent our ability to do 
that, we want to get it at the border.
    But then we do not want the border to become a single point 
of failure, and so we do need to be able to respond 
appropriately should something get past us on the line.
    Ms. McSally. Thanks, Chief. Additionally, we have talked a 
lot about the strategy of defense-in-depth in the rural areas, 
like my community, where we have fixed checkpoints which 
still--no real measurements of effectiveness there, but just 
really allowing the cartels to traffic through communities for 
hours, days, miles, you know, before they are potentially 
intercepted, which is a public safety threat.
    As we are coming with a, you know, new leadership, is there 
going to be a fresh look at that strategy and trying to, you 
know, push closer to the border as opposed to where we have 
had, you know, almost 50 percent of the interceptions in the 
Tucson sector, as you know, are north of 5 miles from the 
border. There are a lot of people who live in that area. That 
is a continuous public safety concern.
    Chief Beeson. So we are constantly assessing our strategy 
and looking for ways to improve upon it. As I mentioned, our 
objective, really, we want to work and push the border south as 
far as we can.
    I think we have had some pretty good success stories, a 
couple of which Director Allen mentioned here today. Working 
with the government of Mexico to really get some of these bad 
things before they are even crossed into the United States.
    We are continuing to deploy the men and women down to the 
border with the objective that we are going to make the arrests 
as close to the border as possible. On the whole, when you look 
at it, that is occurring in a wide number of areas.
    There are some areas where we still have challenges with 
access to the border. You know, there are some environmentally-
sensitive areas. There are areas where there are no roads. So 
those are areas where that is a challenge for us, and so we are 
continuing to work.
    Really, we want it as close to the border. We want to 
prevent it in the first place. Then, of course, absent our 
ability to do that, which does happen, then we want to make 
sure that we do not allow the border to become that single 
point of failure. We want to make sure that we have got the 
capability to interdict anything that does make it across.
    Ms. McSally. Thanks, Chief. So let's talk barriers for a 
minute. There is the 2,000-mile Southern Border. Seven hundred 
miles is land and about 1,300 is water. We have got some level 
of barriers in 654 miles.
    Secretary Kelly testified last week that he would be 
listening to you and the troops on the ground to hear in 
different sectors where barriers need to be replaced or added. 
In your assessment, where do we need additional barriers or 
different types of barriers?
    I will tell you, even some of the replacements going on in 
my district are causing some responses from local residents who 
are living on the border and their concerns.
    So could you just comment on your perspective, which 
Secretary Kelly said he would be listening to on what we 
actually need?
    Chief Beeson. Secretary Kelly did come down to the border. 
He has been to my sector. He has also been to the San Diego 
sector. Subsequent to the visit with us, he went to San Diego 
and did receive briefings from us on what our current laydown 
is, and some of the areas where we would look to enhance that 
when given the opportunity.
    Customs and Border Protection and the Border Patrol, we 
have a process. The acronym for it is, because we love 
acronyms, the CGAP analysis.
    So what we are doing with that is looking at what our 
critical needs are, where there are gaps, and then making sure 
that we have the plans moving forward on where we want to put 
these things. So we can, I think, provide you with another 
briefing----
    Ms. McSally. Great.
    Chief Beeson [continuing]. To, kind-of, give you a better 
idea of where exactly we would like to put up barriers.
    Ms. McSally. I appreciate that.
    All right, the Chair now recognizes Mr. Correa for 5 
minutes.
    Mr. Correa. Thank you, Madam Chair. Very quickly, 
gentlemen, wanted to say that, you know, during the Obama 
administration, we had a record number of deportations, I 
believe, under Obama. Deportations were more than the last few 
Presidents combined.
    So my question to all of you is it is my understanding that 
the folks migrating north from Mexico has really slowed down 
tremendously. Assuming that is the case, how much of that is 
due to a growing Mexican economy, growing middle class, growing 
number of jobs in Mexico that provide for folks to stay and 
essentially find a living in Mexico?
    Mr. Allen. For me, that is more of an economics question. A 
little outside my area of expertise. So I pass on that one.
    Mr. Correa. Everybody pass on that one?
    Admiral Ray. Well, I----
    Mr. Correa. It is an economics question, but I think it is 
a relevant one when we are looking at possibly putting tariffs 
on imports. That is really a monetary policy that could reduce 
economic growth south of the border.
    But the other question I have, one is a sensitive one which 
is on the issue of corruption on our side. Do we have any 
reports? I know we have had some newspaper articles in the past 
about some of our border agents, unfortunately, you know, 
looking the other way. Any update on that? Any status on the 
corruption on our side of the border?
    Mr. Allen. I don't have any numbers, and I refer to it both 
in my written and my oral statement. You know, the reality is 
that U.S. law enforcement is not immune to corruption.
    While I think anecdotally it is certainly at a much lower 
level in the United States than it is in Mexico, you know, back 
to the question about internal conspiracies in the air 
environment, that we face that same challenge, that insider 
threat challenge, on our borders as well.
    It is ICE is not immune. CBP is not immune. State and local 
law enforcement in the United States is not immune. It is 
something that we have to focus on and acknowledge.
    Mr. Correa. I say that because there is so much money 
involved in this business of drugs that nobody is immune. At 
the same time, let me take the opportunity to thank all of the 
men and women in uniform who do protect our borders, who do 
protect our citizens, because you do a darn good job.
    My final question is really kind-of a comment. Got a chance 
to go into Mexico about 4 or 5 months ago. I went through some 
of the small villages, and the issue of public safety is a big 
one. Folks won't go out of their homes after the sun goes down 
because they fear for their lives.
    It was very interesting. A few days before I got there, the 
Mexican marines came in and swept up the whole area. It is my 
understanding, unofficially, about 40 casualties. Forty of the 
bad guys were actually taken out.
    But I want to encourage you to continue to cooperate with 
the Mexican authorities because you notice when Mexican marines 
go in with U.S. leadership they do make a difference when it 
comes to folks living in those small villages throughout 
Mexico. So please continue to do a good job.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Rutherford from Florida for a 
second round. No? OK. Great. Just a few more questions.
    Admiral Ray, have you seen--can you share any changes in 
trends from the change to the wet foot, dry foot policy as far 
as Cubans trying to head north?
    Admiral Ray. Yes, ma'am. As I said, last year was a record 
year in terms of growth of Cuban immigration, illegal 
immigration, since 1994, the biggest year we have had. After 
the wet foot, dry foot was repealed last month, we saw a 
dramatic downturn.
    Now some of this is not really the season, right, this time 
of year when the weather and other things. So we are certainly 
not letting our guard down now because there is always the 
threat.
    Certainly the conditions in Cuba and the conditions in 
America haven't changed. So we see the threat is still out 
there, but the facts on the water as of right now since that 
was repealed, there is a lot less attempts that we have seen 
thus far.
    Ms. McSally. Great, thanks. Can any of you comment on we 
have had a number of States in the country that are now 
legalizing marijuana, and whether that is impacting the 
business model of the cartels and changing from marijuana to 
other drugs or human trafficking related to the supply-and-
demand issue?
    Mr. Allen. I think that might fall into, you know, what we 
could call the intelligence gap. But, you know--and we talked 
earlier about heroin. In my mind, there is no mistaking the 
explosive, you know, growth in the cultivation of poppies in 
Mexico and the transition to, you know, heroin as one of their 
primary drugs that they are exporting to the United States.
    Ms. McSally. So, I mean, correlation doesn't mean 
causality, so there is----
    Mr. Allen. Correct.
    Ms. McSally [continuing]. Probably a couple of different 
elements in that to include the increased demand and the opioid 
addictions----
    Mr. Allen. Absolutely.
    Ms. McSally [continuing]. In the country. I do want to talk 
about that. Despite all the amazing efforts that you gentlemen 
represented today and all the individuals that are doing the 
job every single day in order to defeat these networks and 
intercept the activity, we still have a drug epidemic going on 
in our country.
    The price of drugs is still, unfortunately, affordable for 
people to be ruining their lives. So that has not changed. The 
hard drugs coming through the ports of entry, primarily, most 
of you have testified to.
    Mr. Allen, what else do we need to do at the ports of entry 
related to these hard drugs that are making their way through? 
There are pretty innovative techniques, as you have testified 
to and many of you have testified to.
    Mr. Allen. Well, I think, you know, CBP has done a 
tremendous job in refining and improving how they target, you 
know, at the ports of entry.
    I think focusing more, you know, resources on that problem 
set. You know, the reality is that CBPOs who are on the border 
have a very, very short time to make a decision about whether 
they should admit somebody or refer a vehicle or a person to 
secondary for further inspection.
    So I think, you know, giving them the resources and the 
capabilities to target as effectively as they can, both in the, 
you know, kind-of the personally-owned vehicle and pedestrian 
environment, and then in commercial cargo, is key to that. That 
is certainly an interagency problem.
    You know, ICE and HSI contribute, you know, information 
that helps refine targeting. But, you know, giving them as much 
good information to use to target is where we want to go.
    Ms. McSally. Is there additional technologies that are 
needed or technologies that have been proven that are not 
deployed to each of the ports of entry?
    Mr. Allen. I would defer to Chief Beeson on that.
    Ms. McSally. Chief.
    Chief Beeson. I will have to take that back, for the 
record.
    Ms. McSally. OK.
    Chief Beeson. I will have to ask my----
    Ms. McSally. OK.
    Chief Beeson [continuing]. Field ops, Congresswoman.
    Ms. McSally. Great, thanks. I will say I agree with many of 
the comments made by my colleagues here today that, you know, 
we have got to make sure that the legitimate economic activity 
that comes north and south continues to be able to flow while 
we are intercepting the illegitimate activity and the drugs and 
the human smuggling and what has been talked about today that 
happens both between the ports of entry and at the ports of 
entry.
    If we are talking about border security, we have got to 
look at that in its completeness: The maritime domain, the air 
domain, the land domain, but then at the ports of entry. So we 
have seen in my community, the Douglas port of entry, just as 
an example, is one that is old, is not capable for addressing 
the commerce.
    But also it is a security issue, right? Because they need 
upgrades to be able to address the illegitimate activity that 
is coming through the ports of entry. My hope would be--we had 
a hearing on this last time but, you know, upgrades to the 
ports of entry have been somehow--they are involved in other 
Federal buildings and priorities related to GSA.
    I think we need to look at this more holistically as a 
security issue. When we are talking about infrastructure in 
this Congress and with the administration, I think we need to 
be focused at our ports of entry both for economic drivers and 
for security drivers, and I don't think that should be lost.
    So that is more of a statement. I don't know if anybody has 
a comment on that, but I think somehow we, you know, often just 
talk about between the ports of entry, but the security at the 
ports of entry is just as critical. All right.
    The Chair now recognizes my colleague for any last 
statements.
    Mr. Correa. Thank you very much. Again, I want to thank 
everybody for being here today, and I also concur with our 
chair that--very good discussion. Learned a lot today.
    I just wanted to leave, again, focusing what our Madam 
Chair has said, ports of entry, inland ports. This is a concept 
I picked up from my colleagues in Texas, that checking our 
cargo, checking those things that are about to cross the border 
a few miles before they get to the border be sealed.
    So that once you get to the border, your jobs is a whole 
lot easier than they are now. Has there been any further 
thought about working on those inland ports of entry?
    Chief Beeson. So CBP has engaged in several different pilot 
programs. The one that I think you are referring to was in 
California. Most recently in Arizona they have a program, a 
joint customs program, with Mexican customs that has been 
working quite well for them. They speak very highly of it. So 
it is something that, you know, we continue to assess.
    Ms. McSally. Great. I want to thank the witnesses for their 
valuable testimony and the dialog and the questions and answers 
today. I thank the Members for their questions as well.
    The Members of the committee may have some additional 
questions for the witnesses. I would ask you to respond to 
these in writing. Pursuant to committee rule VII(D), the 
hearing record will be open for 10 days. Without objection, the 
committee stands adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
